APPENDIX

INDEX TO APPENDICES
Opinion in the United States Court of Appeals for the District of Columbia
Circuit (February 21, 2020) .................................................................................. App. 1
Judgment in the United States Court of Appeals for the District of Columbia
Circuit (February 21, 2020) ................................................................................ App. 27
2018 H-Block Auction Order - 33 FCC Rcd. 8446 (2018) .................................. App. 28
2018 DISH Waiver Order - 33 FCC Rcd 8456 (2018) ........................................ App. 38
2013 DISH Waiver Order - 28 FCC Rcd. 16787 - 2013
(December 20, 2013) ........................................................................................... App. 45
Order Denying Rehearing in the United States Court of Appeals for the
District of Columbia Circuit (April 28, 2020) .................................................... App. 70
NTCH, Inc.’s Application for Review Before the Federal Communications
Commission ......................................................................................................... App. 71
NTCH, Inc.’s Application for Review Before the Federal Communications
Commission, WT Docket No. 13-225 (Jan. 22, 2014) ........................................ App. 79
Regulatory Provisions Involved ......................................................................... App. 93

i

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

Argued October 8, 2019

Decided February 21, 2020
No. 18-1241
NTCH, INC.,
APPELLANT
v.

FEDERAL COMMUNICATIONS COMMISSION,
APPELLEE
DISH NETWORK CORPORATION,
INTERVENOR
Consolidated with 18-1242
On Petition for Review and Notice of Appeal of
Orders of the Federal Communications Commission
Donald J. Evans argued the cause for appellant. With him
on the briefs was Keenan Adamchak.
Maureen K. Flood, Counsel, Federal Communications
Commission, argued the cause for appellee. With her on the
brief were Michael F. Murray, Deputy Assistant Attorney
General, U.S. Department of Justice, Robert B. Nicholson and
Frances E. Marshall, Attorneys, Thomas M. Johnson Jr.,
General Counsel, Federal Communications Commission,

App. 1

Page 1 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

2
David M. Gossett, Deputy General Counsel, and Richard K.
Welch, Deputy Associate General Counsel. Jacob M. Lewis,
Associate General Counsel, Federal Communications
Commission, entered an appearance.
Bryan N. Tramont and J. Wade Lindsay were on the brief
for intervenor. Jennifer B. Tatel entered an appearance.

No. 18-1243
NTCH, INC.,
PETITIONER
v.
FEDERAL COMMUNICATIONS COMMISSION AND UNITED
STATES OF AMERICA,
RESPONDENTS
DISH NETWORK CORPORATION,
INTERVENOR
On Petition for Review of Orders of the
Federal Communications Commission
Donald J. Evans argued the cause for petitioner. With him
on the briefs was Keenan Adamchak.
Sarah E. Citrin, Counsel, Federal Communications
Commission, argued the cause for respondents. With her on the

App. 2

Page 2 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

3
brief were Michael F. Murray, Deputy Assistant Attorney
General, U.S. Department of Justice, Robert B. Nicholson and
Frances E. Marshall, Attorneys, Thomas M. Johnson Jr.,
General Counsel, Federal Communications Commission,
David M. Gossett, Deputy General Counsel, and Richard K.
Welch, Deputy Associate General Counsel. Jacob M. Lewis,
Associate General Counsel, and Maureen K. Flood and Thaila
Sundaresan, Counsel, Federal Communications Commission,
entered appearances.
Bryan N. Tramont and J. Wade Lindsay were on the brief
for intervenor. Jennifer B. Tatel entered an appearance.
Before: TATEL, GARLAND, and GRIFFITH, Circuit Judges.
Opinion for the court filed PER CURIAM.
PER CURIAM: Title III of the Communications Act of 1934
charges the Federal Communications Commission with the
regulation of the “channels of radio transmission.” 47 U.S.C.
§ 301. These cases arise out of three Commission spectrummanagement decisions. First, the Commission “modified” Dish
Network Corporation’s licenses in the “Advanced Wireless
Services-4 Band” (the “AWS-4 Band”) to authorize the
company to develop a stand-alone terrestrial network that could
support wireless broadband services. Then, a year later, the
Commission “waived” certain technical restrictions on these
modified licenses, though it conditioned the waivers on Dish’s
commitment to bid a certain sum of money in a public auction
for adjacent spectrum in the so-called “H Block.” And finally,
the Commission designed and conducted “Auction 96,” in
which Dish bid as promised and won the H Block licenses.
NTCH, Inc., a competitor to Dish, challenges all three
decisions. For the reasons set forth below, we deny its petitions

App. 3

Page 3 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

4
for review of the orders modifying Dish’s AWS-4 licenses and
establishing Auction 96’s procedures. But because the
Commission wrongly dismissed NTCH’s challenges to the
waiver orders for lack of administrative standing, we remand
to the Commission to consider those claims on the merits.
I.
A.
The AWS-4 Band’s history begins, for present purposes,
with the disappointing commercial deployment of “mobile
satellite service” (MSS)— “a satellite-powered technology that
provides email and cellular-like phone services,” particularly
in hard-to-reach areas and during natural disasters. Globalstar,
Inc. v. FCC, 564 F.3d 476, 480 (D.C. Cir. 2009). Back in 1997,
bullish on MSS, the Commission allocated spectrum for MSS
and soon granted licenses to eight operators.
By 2003, however, satellite’s prospects seemed bleak
compared to terrestrial technologies—i.e., those that route
radio communications through cell towers. To put MSS
spectrum to better use, the Commission authorized MSS
licensees to offer “ancillary” terrestrial services. See In re
Service Rules for Advanced Wireless Services in the 2000-2020
MHz and 2180-2200 MHz Bands, 27 FCC Rcd. 3561, 3564–
65, ¶¶ 5–6 (2012) (“AWS-4 NPRM”). The Commission thus
allowed “MSS operators to augment their satellite services with
terrestrial facilities” by “re-using frequencies assigned to MSS
operations.” Id. at 3564, ¶ 5. But the Commission imposed a
condition on this new flexibility: before an MSS licensee could
offer terrestrial services, it would first need to provide
“substantial satellite service.” Id.

App. 4

Page 4 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

5
This condition thwarted the development of terrestrial
networks. Unable to make “substantial” satellite service
commercially viable, licensees could not avail themselves of
the terrestrial option. Id. at 3565, ¶ 8. By 2011, six of eight
MSS licensees had surrendered their licenses. When the last
two licensees filed for bankruptcy, Dish swooped in, acquiring
the licenses from the bankrupt companies.
As the MSS spectrum fell into desuetude, the market for
“wireless broadband” (which sends information to data-hungry
devices like iPhones and iPads) was booming. Indeed, the
Commission worried that, soon enough, “mobile data demand
[would] exhaust spectrum resources.” Id. at 3567, ¶ 10. In
response, Congress enacted legislation instructing the
Commission to develop a “national broadband plan” to “ensure
that all people of the United States have access to broadband
capability.” American Recovery and Reinvestment Act of
2009, Pub. L. No. 111-5, § 6001(k)(2)(D), 123 Stat. 115, 516.
The Commission’s resulting National Broadband Plan
acknowledged that its insistence on “substantial satellite
service” in the AWS-4 Band made it “difficult for MSS
providers to deploy ancillary terrestrial networks.” See
FEDERAL COMMUNICATIONS COMMISSION, CONNECTING
AMERICA: THE NATIONAL BROADBAND PLAN 87-88 (2010).
The plan thus recommended a subtle but critical shift in the
AWS-4 Band: authorize “stand-alone terrestrial services”
without the requirement that licensees first offer satellite
service. Id. And in 2011, the Commission took a first step
towards implementing this recommendation, setting aside “coprimary” terrestrial allocations in the satellite ranges. AWS-4
NPRM, 27 FCC Rcd. at 3568, ¶ 14.
NTCH’s first challenge—to the modification of Dish’s
licenses, see infra Part II—arises out of the Commission’s
efforts to further implement the National Broadband Plan’s

App. 5

Page 5 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

6
recommendation. In March 2012, the Commission sought
comments on a proposal to “increase the Nation’s supply of
spectrum for mobile broadband” by creating service rules and
assigning licenses for “terrestrial services” in the AWS-4 Band.
AWS-4 NPRM, 27 FCC Rcd. at 3563, ¶ 1. But the Commission
also sought to preserve the possibility of satellite service.
Noting that its 2011 decision allocated the AWS-4 Band “on a
co-primary basis,” the Commission insisted that its new
policies should protect satellite systems from “harmful
interference caused by [terrestrial] systems.” Id. at 3569–70,
¶ 17; 3587, ¶ 80.
Given its continued commitment to satellite, the
Commission proposed to use its authority under § 316 of the
Communications Act to “modify” Dish’s licenses to allow it to
offer terrestrial services. Id. at 3585–86, ¶¶ 74–78; see 47
U.S.C. § 316(a). The Commission reasoned that allowing
“same-band, separate-operator” sharing of the spectrum—i.e.,
dividing the terrestrial and satellite rights between two
licensees—could hinder coordination between the two
operators, and thus cause interference between the two
services. Id. at 3586–87, ¶¶ 79–80. Back in 2003, when the
Commission first opened the AWS-4 Band for ancillary
terrestrial use, the Commission found that same-band,
separate-operator sharing was unworkable, and the
Commission expected that operators would face the same
issues in 2012. Seeking more information, however, the
Commission asked commenters whether “technological
advances” since 2003 should “reinforce or alter” the
Commission’s expectations. Id. at 3584, ¶ 72. If commenters
established the feasibility of separate licensees, the
Commission explained, it would consider changing course to
“seek comment on other approaches,” including “the
assignment of new initial licenses” to the terrestrial rights
through “competitive bidding.” Id. at 3587, ¶ 80.

App. 6

Page 6 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

7
Nobody changed the Commission’s mind. And so, in
December 2012, the Commission’s AWS-4 Order adopted the
AWS-4 NPRM’s proposed approach. See In re Service Rules for
Advanced Wireless Services in the 2000-2020 MHz and 2180–
2200 MHz Bands, 27 FCC Rcd. 16,102, 16,110–12 (2012)
(“AWS-4 Order”). As the Commission explained, it “received
numerous comments” confirming that “technical hurdles [to
operator sharing] remain” and that granting a terrestrial license
to “an entity other than the MSS incumbent remains
impractical.” Id. at 16,165, ¶ 166. Although one commenter
suggested that “known technologies” would allow spectrum
sharing, id. at 16,172, ¶ 182; see 18-1243 J.A. 142–54
(comments of MetroPCS), the Commission disagreed,
claiming that these technologies were not “market-proven” and
could only work if one operator controlled both uses of the
spectrum. Id. at 16,172, ¶ 182. The Commission also noted that
“no commenter,” MetroPCS included, submitted technical
evidence that disputed its 2003 finding. Id. at ¶ 183.
The Commission announced that it would use its § 316
modification authority to “allow [Dish] to operate terrestrial
services, rather than make the band available . . . under a
sharing regime.” Id. at 16,171, ¶ 181. Acknowledging that
Dish’s licenses would “increase in value,” the Commission
reasoned that modifying these licenses was the “best and fastest
method for bringing this spectrum to market.” Id. at 16,170,
¶ 178.
The AWS-4 Order also imposed two relevant restrictions
on Dish’s licenses. First, the Commission protected the
remaining satellite services from interference by designating
the AWS-4 Band’s lower portion (i.e., 2000–2020 MHz) for
“uplink” operations and the upper portion (i.e., 2180–2200
MHz) for “downlink” operations. Id. at 16,117, ¶ 39. The

App. 7

Page 7 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

8
“downlink” channel sends information from cell towers to
mobile devices, and the “uplink” channel goes the other way.
18-1241 FCC Br. 9 n.2. Although mobile data networks use far
more downlink than uplink data, the Commission concluded
that this limitation was necessary to ensure functioning satellite
service in the AWS-4 Band. AWS-4 Order, 27 FCC Rcd. at
16,117, ¶ 39. Second, to ensure the “timely deployment” of
Dish’s new terrestrial rights, the Commission imposed
“performance requirements” on Dish’s use of the AWS-4
Band. Id. at 16,176, ¶ 193; 16,173–74, ¶¶ 187–88. Relevant
here, failure to offer reliable terrestrial services within seven
years of the order would trigger the automatic termination of
Dish’s licenses. Id.
In February 2013, the Wireless Telecommunications
Bureau (the “Bureau”)—a sub-delegee within the Commission,
see 47 C.F.R. § 0.131—modified Dish’s licenses according to
the terms of the AWS-4 Order. The following month, NTCH
filed identical petitions for reconsideration with the
Commission, challenging the AWS-4 Order and the
modification of Dish’s license. In August 2018, the
Commission dismissed and alternatively denied the petitions.
NTCH timely filed a petition for review, and we have
jurisdiction under 47 U.S.C. § 402(a) and 28 U.S.C. § 2342.
We address the merits of this petition in Part II.
B.
In 2012, as the Commission took steps to modify Dish’s
AWS-4 licenses, Congress also sought to address the “growing
need for spectrum” for wireless networks. National Ass’n of
Broadcasters v. FCC, 789 F.3d 165, 168–69 (D.C. Cir. 2015).
Congress thus passed the Spectrum Act, which directed the
Commission to use a “system of competitive bidding” to
“allocate” a spectrum band dubbed the “H Block.” Middle

App. 8

Page 8 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

9
Class Tax Relief and Job Creation Act of 2012 (the “Spectrum
Act”), Pub. L. No. 112-96, § 6401(a)-(b), 126 Stat. 156, 22223 (codified at 47 U.S.C. § 1451(b)).
In response, the Bureau announced that it would hold
Auction 96 to allocate 176 licenses in the H Block, segregated
based on geographic area. See Auction of H Block Licenses in
the 1915-1920 MHz and the 1995-2000 MHz Bands, 28 FCC
Rcd. 10,013, 10,045-46 (2013) (“Auction Proposal”). The
Bureau sought comment on whether it should “establish a
reserve price” for the auction, below which the spectrum would
not be sold. Id. at 10,026, ¶ 52. The Bureau further proposed to
set that reserve price based “on the aggregate of the gross bids
for the H Block licenses, rather than license-by-license.” Id.
Commenters generally agreed with the Bureau’s proposal,
though none suggested a specific aggregate reserve price.
On September 9, 2013, after the comment period closed,
Dish filed a two-page letter suggesting an aggregate reserve
price of at least “$0.50 per megahertz of bandwidth per
population (‘MHz-POP’).” 18-1241 J.A. 50. MHz-POP is a
unit equal to the number of megahertz multiplied by the
population of a region; for example, if ten megahertz of
spectrum reaches 750,000 people, then MHz-POP equals
7,500,000. See 18-1241 FCC Br. 12 n.3. Dish derived its
estimate from private sales and Commission auctions of similar
spectrum, and referenced reports from financial institutions
valuing the H Block between $0.62 and $1 per MHz-POP.
That same day, Dish also filed a petition asking the Bureau
to “waive” some of the restrictions on its AWS-4 licenses. 181241 J.A. 54. Specifically, Dish sought to use the lower AWS4 Band for downlink operations (rather than just uplink
operations, as the AWS-4 Order required). See 47 C.F.R.
§§ 27.5(j), 27.53(h)(2)(ii). Dish also requested a one-year

App. 9

Page 9 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

10
extension to the seven-year deadline to offer substantial
terrestrial service in the AWS-4 Band. Dish claimed that the
waivers would allow it to “harmonize[]” its uses of the H Block
and the AWS-4 Band, and Dish committed to bid the
“aggregate nationwide reserve price . . . in the upcoming H
Block auction (not to exceed $0.50 per MHz/POP)” if the
Bureau granted the waivers. 18-1241 J.A. 68.
Four days later, on September 13, the Bureau took two key
actions: it sought public comment on Dish’s waiver petition
and announced the procedures for the H Block auction. In its
announcement, the Bureau credited Dish’s valuation of $0.50
per MHz-POP and thus set the aggregate reserve price at
$1.564 billion.
NTCH quickly registered its opposition to both proposed
actions. First, on September 30, it filed a public comment
objecting to Dish’s waiver petition, claiming that Dish and the
Commission made a “backroom deal” amounting to a “cashfor-waiver quid pro quo.” 18-1241 J.A. 194–95. NTCH further
objected that granting Dish’s waivers would bring no “public
interest benefits.” Id. Second, on October 18, NTCH filed a
petition for reconsideration of the auction procedures. Id. at
215. NTCH asked the Bureau to revisit Auction 96’s aggregate
reserve price, claiming that a “deal brokered by the
Commission” generated this “astronomical” sum. Id. at 218–
220. Meanwhile, as Dish’s waiver petition and NTCH’s
petition for reconsideration were pending, NTCH chose not to
sign up for Auction 96 by the deadline. NTCH thus never bid
on the H Block licenses.
The Bureau denied NTCH’s petition for reconsideration,
explaining that NTCH offered no reason to lower the reserve
price, and that any “arrangement” was already disclosed
because Dish’s waiver petition was filed in a public docket

App. 10

Page 10 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

11
where interested parties could submit comments. See In re
NTCH, Inc., 28 FCC Rcd. 16,108, 16,112–13, ¶¶ 13–17
(Wireless Bureau 2013). Moreover, to the extent NTCH took
issue with Dish’s commitment to pay the reserve price in the
waiver request, the Bureau concluded that NTCH’s objection
was misplaced. Id. at 16,113–14, ¶¶ 17–19. Because Dish’s
petition would be “resolved in a separate proceeding,” NTCH’s
petition for reconsideration of the auction procedures was not
an “appropriate vehicle for a premature attack on . . . the
waiver request.” Id.
The Bureau then granted Dish’s waiver petition on
December 20. See In re Dish Network Corp., 28 FCC Rcd.
16,787 (Wireless Bureau 2013). Responding to NTCH’s
objections, the Bureau denied any inappropriate backroom deal
with Dish and stated that it had made its decision “based on the
public record.” Id. at 16,808, ¶ 53. Given Dish’s “unique”
status as an AWS-4 and MSS licensee, the Bureau concluded
that applying the rules to Dish “would be both unduly
burdensome and contrary to the public interest.” Id. at 16,794,
¶ 18. The Bureau further concluded that it could consider
Dish’s “commitment to ensure that the H Block auction
satisfies the aggregate reserve price” as an “additional public
interest benefit.” Id. at 16,808–09, ¶ 53. The Bureau therefore
granted Dish’s waiver, allowing Dish to “elect” whether to
switch to downlink operations. Id. at 16,802–03, ¶ 38. The
Bureau also granted the one-year extension for Dish’s
performance requirements in the AWS-4 Band. Id. at 16,804–
05, ¶¶ 41–43.
The Bureau then conducted Auction 96 as proposed. Dish
bid a total of $1.564 billion on the licenses—exactly the
aggregate reserve price—and won them all.

App. 11

Page 11 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

12
In December 2013 and January 2014, NTCH timely filed
two applications for review of the Bureau’s orders—one
challenging Auction 96’s procedures, the other challenging the
Bureau’s grant of Dish’s waivers for its AWS-4 licenses. The
Commission sat on these applications until 2018, then rejected
both. Regarding NTCH’s objections to the auction procedures,
the Commission dismissed NTCH’s application because it
failed to “specify with particularity” the Bureau’s errors, as the
Commission’s rules required. In re NTCH, Inc., 33 FCC Rcd.
8446, 8450–51, ¶ 11 (2018); see 47 C.F.R. § 1.115(b).
Alternatively, the Commission rejected NTCH’s various
arguments on the merits. Id. at 8451–54, ¶¶ 12–18. Regarding
NTCH’s objections to the Bureau’s grant of Dish’s waivers, the
Commission dismissed NTCH’s application for lack of
administrative standing, concluding that NTCH’s failure to
register for the auction—not the Commission’s grant of the
waivers—caused NTCH to lose its opportunity to bid on the
licenses. In re Dish Network Corp., 33 FCC Rcd. 8456, 8459
¶ 9 (2018).
NTCH timely petitioned for review of the auction orders,
and we have jurisdiction under 47 U.S.C. § 402(a) and 28
U.S.C. § 2342. NTCH also timely appealed the Commission’s
denial of its application for review of the waiver order, and we
have jurisdiction under 47 U.S.C. § 402(b). We address the
merits of both petitions in Part III.
II.
We begin with NTCH’s petition for review of the
Commission’s decision to modify Dish’s licenses in the AWS4 Band. NTCH advances three reasons that we should set aside
these modifications: (1) the Commission’s decision was
arbitrary and capricious because the Commission failed to
consider reasonable alternatives and because the decision

App. 12

Page 12 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

13
lacked support in the record; (2) § 309(j) of the
Communications Act compelled the Commission to auction off
the terrestrial rights as “initial licenses”; and (3) the
Commission’s changes to Dish’s licenses were so substantial
that they exceeded its authority to modify licenses under § 316.
Because we find the first and second arguments meritless and
the third forfeited, we deny NTCH’s petition for review.
A.
Before tackling NTCH’s arguments, we must confirm our
jurisdiction to consider them. See American Rivers v. FERC,
895 F.3d 32, 40 (D.C. Cir. 2018). To have Article III standing,
NTCH must show that it suffered an “injury in fact,” that the
“conduct under challenge” caused such injury, and that a
“favorable decision” will likely “redress the injury.”
DIRECTV, Inc. v. FCC, 110 F.3d 816, 829 (D.C. Cir. 1997).
NTCH argues that it has done so because the Commission’s
modification of Dish’s licenses “deprived [it] of an opportunity
[to] obtain an AWS-4 license by a fair and open process.” 181243 NTCH Br. 15.
This suffices to show standing. An “unsuccessful bidder”
in a Commission auction suffers a cognizable injury if the
Commission deprives the bidder of the right to a “legally valid
procurement process.” DIRECTV, 110 F.3d at 829; see also
Alvin Lou Media, Inc. v. FCC, 571 F.3d 1, 6-7 (D.C. Cir. 2009).
An unfair auction places a bidder at a “substantial competitive
disadvantage” that constitutes Article III harm. DIRECTV, 110
F.3d at 830. It makes no difference whether that disadvantage
flows from unfair procedures or the Commission’s failure to
conduct any auction at all. NTCH contends that the
modification decision was flawed and that the Commission
should have auctioned off the terrestrial rights instead, and we
must assume—at this stage—NTCH’s success on the merits.

App. 13

Page 13 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

14
See City of Waukesha v. EPA, 320 F.3d 228, 235 (D.C. Cir.
2003). Assuming as much, NTCH’s loss of a chance to bid on
the spectrum constitutes an Article III harm caused by the
Commission’s decision to modify Dish’s licenses.
The Commission contends, however, that NTCH cannot
satisfy Article III’s “redressability” element. According to the
Commission, it has no obligation to conduct a public auction,
so a favorable decision is not likely to redress NTCH’s injury.
18-1243 FCC Br. 33-35. As the Commission explains, its duty
to auction off licenses only kicks in once it receives “mutually
exclusive applications” for “initial licenses,” 47 U.S.C.
§ 309(j)(1), and the Communications Act preserves the
Commission’s discretion to “avoid mutual exclusivity in
application and licensing proceedings”—thus averting the need
to auction the licenses. 47 U.S.C. § 309(j)(6); see also M2Z
Networks, Inc. v. FCC, 558 F.3d 554, 563 (D.C. Cir. 2009).
More still, the Commission points out, it could decline to
allocate the terrestrial rights in the AWS-4 Band altogether.
All this is true, but the Commission may not use its
discretion to defeat NTCH’s standing. As the Supreme Court
stated in FEC v. Akins, a challenger’s injury is redressable even
if an agency “might reach the same result exercising its
discretionary powers lawfully.” 524 U.S. 11, 25 (1998).
Indeed, the Commission’s argument proves too much, for it
would allow agencies to shield their actions from judicial
review by invoking their policymaking discretion. In any event,
the administrative record suggests that the Commission would
likely conduct an auction on remand. The AWS-4 NPRM stated
that, if commenters changed the Commission’s mind about the
modification approach, the Commission would “seek comment
on other approaches”—including the “assignment of new
initial licenses via competitive bidding.” AWS-4 NPRM, 27
FCC Rcd. at 3,587, ¶ 80. Therefore, NTCH has standing.

App. 14

Page 14 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

15
B.
Now to the merits. NTCH’s core argument is that we
should vacate the AWS-4 Order because the Commission failed
to consider reasonable alternatives and because its decision
lacked support in the record. We will set aside the
Commission’s decision if it is “arbitrary, capricious, an abuse
of discretion, or otherwise not in accordance with law.” 5
U.S.C. § 706(2)(A). But when the Commission acts to foster
“innovative methods of exploiting the spectrum,” it “functions
as a policymaker” to which we afford “the greatest deference.”
Mobile Relay Associates v. FCC, 457 F.3d 1, 8 (D.C. Cir.
2006). We will accept the Commission’s “technical
judgment[s]” when supported “with even a modicum of
reasoned analysis, absent highly persuasive evidence to the
contrary.” Id. (internal quotation marks omitted). And the
Commission’s “predictive judgments” “within [its] field of
discretion and expertise are entitled to particularly deferential
review, as long as they are reasonable.” See Earthlink, Inc. v.
FCC, 462 F.3d 1, 12 (D.C. Cir. 2006) (internal quotation marks
omitted).
This deferential standard of review makes NTCH’s task a
daunting one. The Commission’s decision to authorize standalone terrestrial services in the AWS-4 Band sought to
encourage “innovative methods of exploiting the spectrum,”
Mobile Relay Associates., 457 F.3d at 8, to address the “urgent
need” for wireless broadband, AWS-4 NPRM, 27 FCC Rcd. at
3567, ¶ 10. And the Commission chose to modify Dish’s
licenses largely because of the “technical judgment,” Mobile
Relay Associates, 457 F.3d at 8, that same-band, separateoperator sharing of the spectrum would be impractical. Indeed,
NTCH conceded at oral argument that it does not challenge this
finding. Oral Arg. Tr. (No. 18-1243) 5:4–9.

App. 15

Page 15 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

16
Accepting this technical judgment, however, the
Commission’s decision to modify Dish’s licenses follows quite
logically. As the Commission explained, Dish could easily
minimize interference between its satellite and terrestrial uses
of the spectrum, AWS-4 Order, 27 FCC Rcd. at 16,171, ¶ 181,
and Dish already had some authority to offer ancillary
terrestrial services, id. at 16,169–70, ¶ 177. Besides resolving
this core technical issue, modifying Dish’s licenses would also,
the Commission anticipated, ensure quicker use of the
spectrum. To encourage Dish’s development of a terrestrial
network, the Commission compelled Dish to develop “reliable
terrestrial signal coverage”—or else forfeit its licenses in the
AWS-4 Band. Id. at 16,173–74, ¶¶ 187–88.
NTCH responds that the Commission failed to consider
alternative policies—specifically, that it should have
reallocated the entire AWS-4 Band to terrestrial use alone. 181243 NTCH Br. 21-29. The technical concern about splitting
up satellite and terrestrial licenses dissolves if the Commission
eliminates satellite service. And because the Commission
agrees with NTCH that commercial satellite service remains
“virtually non-existent,” 18-1243 Reply Br. 18 (quoting AWS4 Order, 27 FCC Rcd. at 16,171, ¶ 177), NTCH reasons that
nothing would be lost by eliminating satellite rights. Indeed,
NTCH is not alone in this contention; before the Commission,
commenters offered similar suggestions. AT&T claimed, for
instance, that the Commission could reduce satellite service to
twenty megahertz of the AWS-4 Band, then auction off the
remaining twenty megahertz as pure terrestrial service. 181243 J.A. 116-18; see also id. at 148–49 (similar, comments of
MetroPCS); id. at 190–91 (similar, comments of T-Mobile).
But this alternative was beyond the scope of the
Commission’s rulemaking. As the Commission points out, the
AWS-4 NPRM never suggested that it was considering

App. 16

Page 16 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

17
eliminating Dish’s satellite rights in the AWS-4 Band. 18-1243
FCC Br. 34. Instead, the Commission sought to enable
terrestrial services in a way that “protect[ed] the incumbent
[satellite] licensee from harmful interference.” AWS-4 NPRM,
27 FCC Rcd. at 3583, ¶ 68. Accordingly, when NTCH
suggested eliminating satellite service, the Commission
dismissed its comment as an “untimely” petition to reconsider
its earlier order “co-allocating” the AWS-4 Band for terrestrial
and satellite uses. AWS-4 Order, 27 FCC Rcd. 16,171, ¶ 180
n.532. Likewise, when NTCH filed its petition for
reconsideration, the Commission determined that NTCH’s
argument was “beyond the scope of the matters that [could] be
addressed in this proceeding.” 18-1243 J.A. 408, ¶ 20 (citing
47 C.F.R. § 1.429(l)(5)).
In these circumstances, we cannot say that the
Commission’s failure to consider stripping Dish of its satellite
rights was unreasonable. Boiled down, NTCH claims that the
Commission should have expanded the rulemaking’s scope to
consider NTCH’s preferred resolution of the problem. But the
Commission need not “resolve massive problems in one fell
regulatory swoop;” instead, it may “whittle away at them over
time.” Massachusetts v. EPA, 549 U.S. 497, 524 (2007). Here,
the Commission reasonably limited the rulemaking proceeding
to proposals to expand terrestrial uses of the AWS-4 Band. See
National Mining Ass’n v. Mine Safety & Health
Administration, 116 F.3d 520, 549 (D.C. Cir. 1997) (noting that
the agency’s explanation that a comment was “beyond the
scope of the rulemaking” was an “adequate” explanation of its
decision).
NTCH also argues that the Commission wrongly assumed
that modifying Dish’s licenses would be the “most efficient and
quickest path to enabling flexible terrestrial use” of the AWS4 Band. 18-1243 NTCH Br. 29-32; AWS-4 Order, 27 FCC Rcd.

App. 17

Page 17 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

18
at 16,164, ¶ 162. As evidence of the Commission’s alleged
misjudgment, NTCH references events that occurred after the
AWS-4 Order. 18-1243 NTCH Br. 30. Specifically, NTCH
claims that Dish failed to meet its interim deadlines and that the
Commission granted Dish’s request for a one-year extension of
the final deadline. Id. But NTCH’s claim that the agency
“turn[ed] out to be mistaken ex post is of limited significance,”
as we must “judge the reasonableness of an agency’s decision
on the basis of the record before the agency at the time it made
its decision.” Rural Cellular Ass’n v. FCC, 588 F.3d 1095,
1107 (D.C. Cir. 2009). And though NTCH claims that the
Commission’s “blunder” was “actually quite apparent back in
2013,” 18-1243 NTCH Br. 31, it musters as evidence a single
comment that questions Dish’s qualifications, 18-1243 J.A.
147 (comment of MetroPCS). Because the Commission’s
“predictive judgments” on this matter “are entitled to
particularly deferential review,” a single contrary comment
does not render the agency’s conclusion unreasonable. See
Earthlink, 462 F.3d at 12 (internal quotation marks and
alteration omitted).
Finally, NTCH claims that the Commission’s failure to
conduct an auction gave Dish an undeserved “windfall” and
neglected to “recover[] for the public” a “portion of the value
of the public spectrum resource.” 18-1243 NTCH Br. 33–35
(citing 47 U.S.C. § 309(j)(3)). But the Commission retains the
authority “to forgo an auction,” so long as it acts “in the public
interest.” M2Z Networks, 558 F.3d at 563; see also 47 U.S.C.
§ 309(j)(6)(E). The Commission conceded the modifications
would “result in an increase in value” for Dish, but nonetheless
concluded that license modification was the “best and fastest
method for bringing this spectrum to market.” AWS-4 Order,
27 FCC Rcd. at 282, ¶ 178. These sorts of “judgments on the
public interest are entitled to substantial judicial deference,”
M2Z Networks, 558 F.3d at 558 (internal quotation marks

App. 18

Page 18 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

19
omitted), and we see no reason to second-guess the
Commission’s decision to choose a functioning wireless
broadband network over a possible influx of cash. We therefore
decline NTCH’s invitation to set aside the AWS-4 Order.
C.
NTCH next argues that § 309(j) of the Communications
Act required the Commission to auction off the terrestrial rights
in the AWS-4 Band as “initial licenses.” 18-1243 NTCH Br.
35–41; 47 U.S.C. § 309(j)(1). Specifically, it claims that an
initial license is one “first awarded for a particular frequency
under a new licensing scheme, that is, one involving a different
set of rights and obligations for the licensee.” 18-1243 NTCH
Br. 37–38 (quoting Fresno Mobile Radio, Inc. v. FCC, 165
F.3d 965, 970 (D.C. Cir. 1999) (emphasis added)). NTCH
believes that, because the AWS-4 rights give Dish a “different
set of rights and obligations,” § 309(j) compels the
Commission to allocate them through a public auction. 181243 NTCH Br. 37–38.
NTCH misunderstands
the structure of the
Communications Act. The Commission must conduct an
auction only if it accepts “mutually exclusive applications” for
initial licenses, 47 U.S.C. § 309(j)(1), but the Communications
Act also states that nothing in § 309(j) shall “be construed to
relieve the Commission of the obligation in the public interest
to continue to use engineering solutions, negotiation, threshold
qualifications, service regulations, and other means in order to
avoid mutual exclusivity in application and licensing
proceedings,” id. § 308(j)(6)(E) (emphasis added); see also
M2Z Networks, 558 F.3d at 562–63. In this case, because the
Commission
never
accepted
“mutually
exclusive
applications,” it wasn’t obligated to conduct an auction. NTCH
nevertheless claims that our decision in Fresno Mobile Radio

App. 19

Page 19 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

20
requires the Commission to treat the AWS-4 rights as “initial
licenses.” 18-1243 NTCH Br. 37–40. But Fresno Mobile Radio
compels no such thing. There, we held that the Commission
reasonably chose to treat certain spectrum rights as initial
licenses, rather than to allocate them to the incumbent
licensees, because the licenses included “a different set of
rights and obligations.” 165 F.3d at 970–71. But a holding that
the Commission may treat a “different set of rights and
obligations” as initial licenses provides no support for NTCH’s
contention that the Commission must do so.
D.
Finally, NTCH argues that the Commission’s decision to
modify Dish’s licenses exceeded its authority under § 316 of
the Communications Act. 47 U.S.C. § 316(a). Under that
provision, the Commission enjoys “broad power to modify
licenses” if those modifications “serve the public interest,
convenience and necessity.” California Metro Mobile
Communications, Inc. v. FCC, 365 F.3d 38, 45 (D.C. Cir.
2004). But the Commission’s “power to modify existing
licenses does not enable it to fundamentally change those
licenses.” Cellco Partnership v. FCC, 700 F.3d 534, 543-44
(D.C. Cir. 2012) (internal quotation marks omitted and
emphasis added); see also Community Television, Inc. v. FCC,
216 F.3d 1133, 1140-41 (D.C. Cir. 2000) (same).
NTCH insists that the Commission’s changes to Dish’s
licenses were so “fundamental” that they go beyond its
modification authority under § 316. 18-1243 NTCH Br. 41-44.
We need not address this argument, however, because NTCH
failed to raise it until its petition for reconsideration. Generally,
a challenger “forfeit[s] an opportunity to challenge an agency
rulemaking on a ground that was not first presented to the
agency for its initial consideration.” Advocates for Highway &

App. 20

Page 20 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

21
Auto Safety v. Federal Motor Carrier Safety Administration,
429 F.3d 1136, 1150 (D.C. Cir. 2005); see also Washington
Ass’n for Television & Children v. FCC, 712 F.2d 677, 681
(D.C. Cir. 1983) (noting that the provision authorizing review
of Commission decisions “codif[ies] the judicially-created
doctrine of exhaustion of administrative remedies”). As NTCH
concedes, nowhere in its comments on the AWS-4 NPRM did it
challenge the Commission’s authority under § 316 to modify
Dish’s licenses. 18-1243 J.A. 404, ¶ 15. In denying NTCH’s
petition for reconsideration, the Commission dismissed
NTCH’s argument because its belated objection “frustrate[d]”
the Commission’s ability to “address [it] during the course of
the rulemaking.” Id. at 405, ¶ 15.
NTCH offers two rejoinders, but neither has merit. First,
NTCH claims that Dish’s comments regarding § 316 preserved
NTCH’s argument for our review. Dish argued that the
Commission lacked § 316 authority to force Dish “to relinquish
MSS or terrestrial rights to its spectrum,” 18-1243 J.A. 206–
207—in other words, to do exactly as NTCH suggested. But
Dish’s objection that the Commission could not unilaterally
abolish its satellite or terrestrial rights hardly preserves
NTCH’s contention that the Commission lacked authority to
authorize stand-alone terrestrial services. 18-1243 NTCH Br.
41–44.
Second, NTCH claims that the Commission did consider
its argument, so NTCH may address the issue here without
“sandbagging” the Commission. 18-1243 Reply Br. 10. True
enough, the Commission alternatively rejected NTCH’s § 316
argument on the merits. 18-1243 J.A. 404–06. But the
Commission’s thoroughness does not salvage NTCH’s
forfeited claim. We will not grant “relief on the merits” when
the Commission has “properly dismissed the pleading on
procedural grounds.” BDPCS, Inc. v. FCC, 351 F.3d 1177,

App. 21

Page 21 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

22
1183 (D.C. Cir. 2003). Because the Commission correctly
treated NTCH’s claim as procedurally barred, “we have no
occasion to reach the merits.” Id. at 1184.
***
Because none of NTCH’s challenges to the AWS-4 Order
has merit, we deny its petition for review.
III.
This brings us, finally, to NTCH’s challenges to the order
granting Dish’s request for a waiver of certain AWS-4 rules
and to the Auction 96 procedures. We consider each in turn.
A.
We begin with the Commission’s dismissal of NTCH’s
application for review of the Bureau’s order granting Dish’s
waivers. In re Dish Network Corp., 33 FCC Rcd. 8456 (2018).
Under § 5(c)(4) of the Communications Act, NTCH may
only seek review of the waiver if it was “aggrieved” by the
Commission’s action. The Commission interprets “aggrieved”
in § 5(c)(4) to impose the “Supreme Court’s test for
constitutional standing.” Id. at 8460 n.42. In this case, the
Commission concluded that NTCH lacked administrative
standing because it failed “to demonstrate any direct causal
link” between the waiver and “any actual or concrete injury to
NTCH.” Id. at 8461, ¶ 13. NTCH claimed that the Bureau’s
grant of the waivers “thwarted” its plans to participate in the
H Block auction by skewing the auction in Dish’s favor, but
the Commission determined that NTCH “made a voluntary,
business decision not to participate in the auction . . . prior to
the” Bureau’s order. Id. As the Commission concisely says on

App. 22

Page 22 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

23
appeal, NTCH “proximate[ly] cause[d]” its own injury by
choosing not to bid. 18-1241 FCC Br. 59.
The Commission misunderstood NTCH’s alleged injury.
NTCH claims that the Commission deprived it not of a license
itself, but rather of a fair and valid auction process. As
discussed, such a claim “asserts a cognizable injury.” U.S.
AirWaves, Inc. v. FCC, 232 F.3d 227, 232 (D.C. Cir. 2000);
see also DIRECTV, 110 F.3d at 830, even if the prospective
bidder “voluntarily withdr[aws]” from the unfair auction.
Alvin Lou Media, 571 F.3d at 7.
The Commission responds, correctly, that NTCH
withdrew from the auction before Dish received the
challenged waivers. But under our caselaw, the Commission
still caused NTCH’s harm. In Airwaves, we held that a
disappointed bidder had standing to seek reconsideration of an
auction, despite “challeng[ing] only the way in which the
Commission treated licensees after the auction was
completed.” 232 F.3d at 232. The Commission’s actions still
caused that injury because the bidder “would have bid more
had it known that financial terms more favorable than those
announced at the time of the auction would later be offered to
winning bidders.” Id. Much like the challenger in Airwaves,
NTCH has standing because it “would have” participated in
Auction 96 if it had not anticipated that the Commission’s
grant of the waivers would skew the auction in Dish’s favor.
We therefore vacate the Commission’s order dismissing
NTCH’s application for review. But because the Commission
never reached the merits of NTCH’s challenge to the waiver,
neither shall we. Having concluded that the Commission erred
in its threshold analysis, we “remand to the agency for
additional investigation or explanation.” Florida Power &
Light Co. v. Lorion, 470 U.S. 729, 744 (1985).

App. 23

Page 23 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

24
B.
NTCH also sought Commission review of the Bureau’s
Auction 96 procedures. The Commission denied NTCH’s
application for review both on procedural grounds and on the
merits. In re NTCH, Inc., 33 FCC Rcd. 8446 (2018). Because
NTCH has failed to show that the Commission’s decision was
arbitrary or capricious, we deny the petition for review.
As a threshold issue, the Commission again challenges
NTCH’s standing. The Commission argues that NTCH cannot
assert an Article III injury because the reserve price “did not
hinder NTCH’s ability to compete for licenses.” 18-1241 FCC
Br. 34. Specifically, the Commission claims that the aggregate
reserve price presented no bar to NTCH competing for specific
licenses within the H Block. Id. at 34–35. Once again, the
Commission betrays a cramped view of NTCH’s asserted
injury. As discussed, the deprivation of a “valid procurement
process,” Airwaves, 232 F.3d at 232, constitutes an
independent Article III injury, distinct from NTCH’s ultimate
failure to obtain a license. And because NTCH traces that
deprivation to the Commission’s adoption of Dish’s proposed
reserve price—a price that, in NTCH’s view, skewed the
auction mechanics—NTCH has standing to challenge the
auction procedures.
Turning now to the merits, the Commission dismissed
NTCH’s application for review of the Bureau’s order because
NTCH failed to comply with the Commission’s procedural
rules. Under such rules, an application for review must
“specify with particularity” why—selecting from five
factors—the Bureau’s order warrants the full Commission’s
review. 47 C.F.R. § 1.115(b)(2). The Commission concluded
that NTCH failed to do so. In re NTCH, Inc., 33 FCC Rcd.
8446, 8450, ¶ 11 (2018). We review this “dismissal of

App. 24

Page 24 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

25
pleadings on procedural grounds under the familiar standards
of the Administrative Procedure Act,” BDPCS, 351 F.3d at
1183, and we find the Commission’s decision reasonable.
Under a header entitled “Factors Warranting Commission
Consideration,” NTCH cited three errors: (1) the reserve price
was set “contrary to precedent” and was “unsupported by the
facts of record,” (2) “adopting a reserve price based on a deal
with a potential auction bidder [wa]s unprecedented,” and (3)
the Bureau’s action “constitute[d] a prejudicial procedural
error.” 18-1241 J.A. 269. NTCH’s asserted errors parrot the
factors in the Commission’s rules, but the agency found that
NTCH identified no “statute, regulation, case, precedent, or
established Commission policy (or any evidence of record)”
undermining the Bureau’s decision. In re NTCH, Inc., 33 FCC
Rcd. 8,446, 8,450–51, ¶ 11 (2018). Likewise, NTCH
identified no “concrete harm or prejudice it may have
suffered” from the alleged procedural error. Id. In other words,
NTCH alleged “unprecedented” action and “prejudicial” error
without citing precedent or showing prejudice.
NTCH responds that the Commission’s rules require it
only “to identify briefly” which factors from the “menu of five
possible choices” justify review. 18-1241 Reply Br. 14. NTCH
thinks it cleared this “minor hurdle” because it “carefully and
explicitly laid out” specific factors. Id. But again, NTCH cites
no authority supporting its assertion, and we’ve said in a
similar context that the Commission “need not sift pleadings
and documents to identify arguments that are not stated with
clarity.” Bartholdi Cable Co., Inc. v. FCC, 114 F.3d 274, 279
(D.C. Cir. 1997) (internal quotation marks omitted). Given the
“highly deferential standard” we apply under arbitrary and
capricious review, Cellco Partnership, 357 F.3d at 93, NTCH
has given us no basis to conclude that the agency’s dismissal
was improper. Because the Commission acted lawfully, “we

App. 25

Page 25 of 26

USCA Case #18-1241

Document #1829468

Filed: 02/21/2020

26
have no occasion to reach the merits.” BDPCS, 351 F.3d at
1184.
Finally, in its briefs before this court, NTCH argued that
we should set aside Auction 96 because it resulted in Dish
bidding on not just the H Block licenses, but on the value of
spectrum licenses plus the waivers. NTCH compares the
bidding to an auction where “the auctioneer has a side deal with
one bidder that if she is the winning bidder on ten cars, she will
be given a brand new Cadillac,” and, “[u]nder textbook
economic theory,” that arrangement skews the auction. 181241 NTCH Br. 44–45. Though NTCH’s example is evocative,
we cannot consider it. As NTCH conceded at oral argument, it
failed to raise this argument before the Commission. Oral Arg.
Tr. (No. 18-1241) 37:10–14. Accordingly, it is forfeited. See
Advocates for Highway & Auto Safety, 429 F.3d at 1150. We
therefore deny NTCH’s petition for review.
IV.
For the reasons given above, we deny NTCH’s petitions
for review of both the initial order modifying Dish’s AWS-4
licenses and the order setting the Auction 96 procedures.
Because the Commission wrongly dismissed NTCH’s
application for review of the Bureau’s grant of the waivers,
however, we vacate the Commission’s order and remand to the
Commission to consider those claims in the first instance.
So ordered.

App. 26

Page 26 of 26

USCA Case #18-1241

Document #1829462

Filed: 02/21/2020

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 18-1241
NTCH, INC.,

September Term, 2019
FILED ON: FEBRUARY 21, 2020

APPELLANT

v.
FEDERAL COMMUNICATIONS COMMISSION,
APPELLEE
DISH NETWORK CORPORATION,
INTERVENOR
Consolidated with 18-1242
On Petition for Review and Notice of Appeal of
Orders of the Federal Communications Commission

Before: TATEL, GARLAND, and GRIFFITH, Circuit Judges
JUDGMENT
These causes came on to be heard on a petition for review and notice of appeal of orders of the
Federal Communications Commission and were argued by counsel. On consideration thereof, it is
ORDERED and ADJUDGED that the petition for review of the Auction 96 procedures be
denied; the Commission’s order dismissing NTCH’s challenges to the waiver orders be vacated, and the
case be remanded to the Commission to consider NTCH’s claims on the merits, in accordance with the
opinion of the court filed herein this date.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

/s/
Daniel J. Reidy
Deputy Clerk

Date: February 21, 2020
Opinion Per Curiam

App. 27

Federal Communications Commission

FCC 18-122

Before the
Federal Communications Commission
Washington, D.C. 20554
In the Matter of
NTCH, Inc.
Application for Review of Public Notice
Announcing Procedures and Reserve Price for
Auction of H Block Licenses (Auction 96)

)
)
)
)
)
)
)

AU Docket No. 13-178

MEMORANDUM OPINION AND ORDER
Adopted: August 14, 2018

Released: August 16, 2018

By the Commission:
I.

INTRODUCTION

1.
In this Memorandum Opinion and Order, we dismiss and alternatively deny the
Application for Review of NTCH, Inc. (NTCH), which challenges the procedures established by staff for
the auction of licenses in the 1915-1920 MHz and 1995-2000 MHz bands (H Block) in Auction 96.1
NTCH seeks review of a decision by the Auctions and Spectrum Access Division (Division) of the
Wireless Telecommunications Bureau (Bureau), which denied, among other things, NTCH’s request to
reconsider the adoption of an aggregate reserve price amount of $0.50 per MHz-pop.2 For the reasons set
forth below, we conclude that NTCH’s Application for Review does not meet the procedural
requirements for an application for review and its claims are without merit.
II.

BACKGROUND

2.
The Commission offered H Block licenses in Auction 96 pursuant to the Middle Class
Tax Relief and Job Creation Act of 2012 (Spectrum Act).3 The Spectrum Act directed the Commission,
no later than February 23, 2015, to allocate for commercial use and license spectrum in the H Block,
using a system of competitive bidding.4 The Spectrum Act directed that proceeds from an auction of H
Block spectrum be deposited into the Public Safety Trust Fund and be used for, among other things,
funding (or reimbursement to the U.S. Treasury for the funding) of the nationwide, interoperable public
safety broadband network by the First Responder Network Authority (FirstNet).5
3.
On July 15, 2013, the Bureau released the Auction 96 Comment Public Notice in which it
announced its intention to auction H Block licenses and sought comment on procedures for conducting

1

See NTCH, Inc.’s Application for Review, AU Docket No. 13-178 (filed Dec. 27, 2013) (Application for Review).

See NTCH, Inc., Memorandum Opinion and Order, 28 FCC Rcd 16108, 16110-11, 16112-14, paras. 9, 11-20
(WTB 2013) (NTCH MO&O).
2

3

See Middle Class Tax Relief and Job Creation Act of 2012, Pub. L. No. 112-96, 126 Stat. 156.

4

Spectrum Act § 6401(b) (codified at 47 U.S.C. § 1451(b)).

Id. §§ 6401(c)(4), 6413 (codified at 47 U.S.C. §§ 309(j)(8)(F), 1457); see also id. § 6202(a) (codified at 47 U.S.C.
§ 1422(a)).

5

844628
App.

Federal Communications Commission

FCC-18-122

the auction.6 As the Bureau noted,7 Section 309(j) of the Communications Act (Act) requires the
Commission, in designing auction methodologies, to “prescribe methods by which a reasonable reserve
price will be required, or a minimum bid will be established, . . . unless the Commission determines that
such a reserve price or minimum bid is not in the public interest.”8 The Bureau explained the difference
between these two amounts referred to in Section 309(j): a reserve price is an amount below which a
license or licenses will not be sold, while a minimum opening bid amount is an amount below which bids
will not be accepted in the first instance, in order to accelerate the bidding process.9
4.
For the H Block auction, the Commission sought comment on both reserve price and
minimum opening bid amounts. In light of the Commission’s obligation to deposit the H Block auction
proceeds into the Public Safety Trust Fund, the Bureau proposed to set a reserve price based on the
aggregate of the gross bids for the H Block licenses rather than license-by-license reserve prices.10 The
Bureau sought comment on this proposal, including the factors the Bureau should consider in setting the
reserve price amount.11 The Bureau also asked commenters to describe in detail the specific factors that
informed their conclusions.12 For minimum opening bids, the Bureau proposed amounts based on $0.07
per MHz-pop, but differing from market to market based on the relative prices of winning bids received in
prior Auctions 66 (AWS-1 licenses) and 73 (700 MHz licenses).13
5.
In response to the Auction 96 Comment Public Notice, commenters generally supported
the Bureau’s proposal to set an aggregate reserve price.14 Although no commenter recommended a
specific reserve price amount,15 DISH Network Corporation (DISH) filed an ex parte letter in the
proceeding asserting that its estimate of the value of the H Block spectrum was “at least $0.50 per

Auction of H-Block Licenses in the 1915-1920 MHz and 1995-2000 MHz Bands; Comment Sought on Competitive
Bidding Procedures for Auction 96, AU Docket No. 13-178, Public Notice, 28 FCC Rcd 10013, 10014, 10017-33,
paras. 1, 15-83 (WTB 2013) (Auction 96 Comment Public Notice). The Auction 96 Comment Public Notice was
published in the Federal Register on July 29, 2013. 78 Fed. Reg. 45524 (July 29, 2013).
6

7

Auction 96 Comment Public Notice, 28 FCC Rcd at 10025, para. 49.

47 U.S.C. § 309(j)(4)(F). The Balanced Budget Act of 1997 specifically directed the Commission to change its
approach to reserve prices. Balanced Budget Act of 1997, Pub. L. No. 105-33, § 3002(a)(1)(C)(iii), 111 Stat. 251,
259 (codified at 47 U.S.C. § 309(j)(4)(F)). Prior to the enactment of the Balanced Budget Act, Section 1.2104 of the
Commission’s rules provided that it “may establish a reservation price . . . below which a license subject to auction
may not be awarded.” 47 CFR § 1.2104(c) (1997). Thus, the Balanced Budget Act effectively established a
presumption in favor of a required minimum opening bid or reserve price to prevent licenses from being assigned
via auction at unacceptably low prices. Auction of 800 MHz SMR Upper 10 MHz Band; Minimum Opening Bids or
Reserve Prices, Order, 12 FCC Rcd 16354, 16358, paras. 11-12 (WTB 1997); see also Amendment of Part 1 of the
Commission’s Rules—Competitive Bidding Procedures, Third Report and Order and Second Further Notice of
Proposed Rule Making, 13 FCC Rcd 374, 454-55, paras. 139-40 (1998).
8

Auction 96 Comment Public Notice, 28 FCC Rcd at 10025, para. 50; see also 47 CFR § 1.2104(c)-(d)
(distinguishing between reserve prices and minimum opening bids).
9

10

Auction 96 Comment Public Notice, 28 FCC Rcd at 10026, para. 52.

11

Id. at 10026, paras. 52-53.

12

Id. at 10026, para. 53.

13

Id. at 10026-27, para. 55.

Cellular South Reply Comments at 5-6; Sprint Comments at 11-12; T-Mobile USA Inc. Comments at 6-7; see
also Letter from Jeffrey H. Blum, DISH Network Corporation, to Marlene H. Dortch, Secretary, FCC 1 (Sept. 9,
2013) (DISH Ex Parte).
14

T-Mobile advised the Bureau to carefully balance the variety of public interests and objectives, including the need
to fund FirstNet, when establishing the reserve price. T-Mobile Comments at 6-7.
15

844729
App.

Federal Communications Commission

FCC-18-122

megahertz of bandwidth per population (“MHz-POP”) on a nationwide aggregate basis.”16 DISH stated
that its estimate was “based on recent auctions and sales in the secondary market,” citing, as examples,
the 2006 AWS-1 spectrum auction, which had resulted in an average valuation of $0.54 per MHz-pop,
recent secondary market purchases that valued AWS spectrum at $0.61 and $0.69 per MHz-pop, and
estimated average values of H Block spectrum submitted to the FCC by several financial institutions,
ranging from $0.62 to $1.00 per MHz-pop.17 All of these estimates referred to data contained in
Commission records.18 NTCH was silent on all issues regarding the reserve price, as NTCH did not file
comments or otherwise participate at this stage of the proceeding.
6.
On September 9, 2013, DISH filed a petition for waiver of certain Commission rules to
allow terrestrial use of the 2000-2020 MHz and 2180-2200 MHz band spectrum (AWS-4 band).19
Specifically, DISH sought a waiver of certain technical requirements to permit use of the lower AWS-4
band for either uplink or downlink operations.20 DISH also requested an extension of the final build-out
requirement for each of the AWS-4 licenses.21 The DISH Petition was placed on public notice in a
separate proceeding.22
7.
On September 13, 2013, the Bureau released the Auction 96 Procedures Public Notice.23
The Bureau adopted its proposal to establish an aggregate reserve price that is higher than the sum of the
minimum opening bids.24 As the Bureau explained, “Minimum opening bids are not meant to set market
values.”25 The Bureau noted that “[t]he limited comment received on this issue is generally supportive of
our reserve price proposals, and we received no opposition to the use of a reserve.”26 For the H Block
licenses in Auction 96, the Bureau set the aggregate reserve price at $1.564 billion, which was calculated
by using DISH’s suggestion of a minimum spectrum value of $0.50 per MHz-pop and rounding the result
to the nearest million.27 The Bureau determined that “this amount will appropriately recover for the
public a portion of the value of the spectrum, especially in light of the Spectrum Act’s requirement” to
deposit the proceeds in the Public Safety Trust Fund for use by FirstNet.28 The Bureau also adopted its

16

DISH Ex Parte at 1.

17

Id.

18

Id. at 1 nn.2-5.

Petition for Waiver of Sections 27.5(j) and 27.54(h)(2)(ii) and Request for Extension of Time, WT Docket No.
13-225 (filed Sept. 9, 2013) (DISH Waiver Petition).
19

20

Id. at 6-16.

21

Id. at 16-19.

Wireless Telecommunications Bureau Opens Docket to Seek Comment on DISH Network Corporation’s Petition
for Waiver and Request for Extension of Time, WT Docket No. 13-225, Public Notice, 28 FCC Rcd 12987 (WTB
2013).
22

Auction of H Block Licenses in the 1915-1920 MHz and 1995-2000 MHz Bands Scheduled for January 14, 2014;
Notice and Filing Requirements, Reserve Price, Minimum Opening Bids, Upfront Payments, and Other Procedures
for Auction 96, Public Notice, 28 FCC Rcd 13019, 13064, para. 172 (WTB 2013) (Auction 96 Procedures Public
Notice).
23

24

Id.

25

Id. at 13065, para. 177.

26

Id. at 13063, para. 170.

27

Id. at 13064, para. 172.

28

Id.

844830
App.

Federal Communications Commission

FCC-18-122

proposed minimum opening bid amounts, based on an overall figure of $0.07 per MHz-pop.29 On
October 18, 2013, NTCH filed a petition for reconsideration of certain aspects of the Auction 96
Procedures Public Notice.30
8.
On November 27, 2013, the Division denied NTCH’s Petition for Reconsideration.31 As
pertinent here, the Division concluded that NTCH had failed to raise any facts that were not known or
existing or that were not fully considered prior to the release of the Auction 96 Procedures Public
Notice.32 Independent of that procedural ground for denial, the Division also concluded that NTCH failed
to show that reconsideration was warranted on the merits.33 The Division rejected NTCH’s argument for
a significant reduction in the aggregate reserve price for Auction 96. The Division pointed out that: (1)
the Auction 96 Comment Public Notice had proposed setting an aggregate reserve price in an amount
different from the sum of the minimum opening bids and had drawn a clear distinction between the two;
(2) the reserve price of $0.50 per MHz-pop was well supported by the evidence of record and was
consistent with publicly available information on spectrum license prices; (3) NTCH had provided no
evidence to the contrary; and (4) the reserve price reflects a proper balancing of the public interest
objectives of Section 309(j) of the Communications Act.34 In addition, the Division rejected NTCH’s
request to make part of the record in the Auction 96 proceeding the alleged “arrangement” by which
DISH would bid at its suggested reserve price of $0.50 per MHz-pop in exchange for grant of its waiver
request.35 While the Division noted that the DISH Ex Parte was already part of the record in the Auction
96 proceeding, it stated that the DISH Waiver Petition was a matter of public record in a separate
proceeding and would be addressed on its own merits.36 Finally, the Division rejected NTCH’s request to
resolve the DISH Waiver Petition regarding the status of the AWS-4 band prior to the start of Auction 96
as inconsistent with the public interest.37 The Division cited the agency’s longstanding advice to potential
bidders—“that they are solely responsible for conducting due diligence to investigate and evaluate all
technical and marketplace factors that may bear upon their decision to bid upon a license being offered at
auction, including pending matters”—and observed that bidders are “[t]hus urge[d] . . . to consider any
pending challenges or waiver requests in determining whether and how much to bid on licenses at
auction.”38 Moreover, the Division specifically found that applicants choosing to bid in Auction 96 would
be able to “assess the impact of existing rules and the possible impact, if any, of the technical changes
proposed by DISH.”39 Finally, the Division explained that the Commission does not routinely delay

29

Id. at 13065, para. 177.

Petition for Reconsideration of NTCH, Inc., AU Docket No. 13-178, at 1-3, 6-7 (filed Oct. 18, 2013) (NTCH
Petition for Reconsideration).
30

31

NTCH MO&O, 28 FCC Rcd at 16110-11, 16111-14, paras. 9, 11-20.

32

Id. at 16110, para. 9.

Id. at 16110-11, 16112-16114, paras. 9, 13-20. The Division also denied NTCH’s request that it act on the Rural
Wireless Association’s Petition for Reconsideration of the H Block service rules prior to the start of Auction 96. Id.
at 16110, 16111-12, paras. 9, 11-12. We will not consider that request because NTCH does not renew it in the
Application for Review.
33

34

Id. at 16112-13, paras. 13-16; see also NTCH Petition for Reconsideration at 3-6.

35

NTCH MO&O, 28 FCC Rcd at 16113-14, para. 17; see also NTCH Petition for Reconsideration at 6.

36

NTCH MO&O, 28 FCC Rcd at 16113-14, para. 17.

37

Id. at 16114, paras. 18-19; see also NTCH Petition for Reconsideration at 6-7.

38

NTCH MO&O, 28 FCC Rcd at 16114, para. 19.

39

Id.

844931
App.

Federal Communications Commission

FCC-18-122

spectrum auctions to resolve such issues and if the Division were to do so here, the delay would
undermine its ability to promote the public interest through the policy objectives in Section 309(j).40
9.
NTCH subsequently filed an Application for Review of the Division’s denial of its
Petition for Reconsideration.41 NTCH continues to challenge the Bureau’s adoption of an “extremely
high” aggregate reserve price of $1.564 billion for the H Block licenses offered in Auction 96 by arguing
that the amount was unsupported by facts or precedent.42 NTCH also renews claims that the reserve
price was driven by a “backroom deal” that should have been made public.43 Finally, NTCH repeats its
argument that the grant of DISH’s Waiver Petition would be unfair to potential bidders in Auction 96
because DISH would have the unilateral power to decide whether the adjacent band would be used for
uplink or downlink operations.44
10.
In early 2014, the Commission proceeded with the scheduled auction of H Block
licenses. Bidding in Auction 96 began on January 22, 2014,45 and closed on February 27, 2014.46 DISH
won all the licenses available in the Auction, with aggregate winning bids totaling $1.564 billion.47
III.

DISCUSSION

11.
The Application for Review is governed by Section 5(c) of the Communications Act of
1934, as amended,48 and Section 1.115 of the Commission’s rules.49 At the outset, we conclude NTCH’s
Application for Review fails to meet the procedural requirements for an application for review set forth in
section 1.115(b) of the Commission’s rules.50 Under Section 1.115(b), an application for review must
“specify with particularity, from among [five listed factors], the factor(s) which warrant Commission
consideration of the questions presented.”51 NTCH asserts that the H Block aggregate reserve price is
“unprecedented,” “contrary to precedent[,] and unsupported by the facts of the record,”52 yet the
Application for Review fails to specifically identify any statute, regulation, case precedent, or established
Commission policy (or any evidence of record) that conflicts with the Bureau’s reserve price
40

Id.

Application for Review. Although as noted above NTCH had not filed comments in response to the Auction 96
Comment Public Notice, NTCH argued that its Petition for Reconsideration had relied on new facts, pointing to the
DISH Ex Parte and the DISH Waiver Petition. Id. at 2-4. We need not address this argument, because as noted
below we reject NTCH’s arguments for other reasons in any event.

41

42

Id. at 1, 4-5.

43

Id. at 1, 5-6.

44

Id. at 6-7.

See Auction of H Block Licenses in the 1915-1920 MHz and 1995-2000 MHz Bands: 23 Bidders Qualified to
Participate in Auction 96, Public Notice, 29 FCC Rcd 77, 77, para. 1 (WTB 2014).
45

Auction of H Block Licenses in the 1915-1920 MHz and 1995-2000 MHz Bands Closes; Winning Bidder
Announced for Auction 96, Public Notice, 29 FCC Rcd 2044, 2044, para. 1 (WTB 2014).
46

See id. at 2044, 2052-62, para. 1, Attach. A; FCC, Wireless Telecommunications Bureau, Auction 96: H Block
Summary (Feb. 28, 2014), http://wireless.fcc.gov/auctions/default.htm?job=auction_summary&id=96. The winning
bidder, American H Block Wireless L.L.C., is a wholly owned direct subsidiary of DISH Wireless Holding L.L.C.,
which is a wholly owned direct subsidiary of DISH Network Corporation.
47

48

47 U.S.C. § 155(c).

49

47 CFR § 1.115.

50

Id. § 1.115(b)(1)-(2).

51

Id. § 1.115(b)(2).

52

Application for Review at 2; see 47 CFR § 1.115(b)(2)(i).

845032
App.

Federal Communications Commission

FCC-18-122

determination. Likewise, NTCH claims that the Bureau’s decision is a “prejudicial procedural error,”53
yet the Application for Review fails to specifically identify any concrete harm or prejudice it may have
suffered. While the Application for Review asserts that NTCH itself chose not to enter the auction in
light of DISH’s bidding commitment, it does not explain why it “seemed likely” to NTCH it could not
have won at least some of the Auction 96 licenses.54 Vague statements asserting error are not enough to
justify review under our rules.55 NTCH failed to meet Section 1.115(b)’s procedural requirements, and
dismissal of the Application for Review is warranted.
12.
In any event, as an independent and alternative basis for our decision, we conclude that
even if NTCH’s claims are considered on their merits, they must be denied for the same reasons the
Bureau cited in the MO&O. NTCH has not demonstrated that it was prejudiced by the Bureau’s actions.56
As discussed above, NTCH chose not to participate in the pre-auction process that established the
procedures for Auction 96, despite having ample opportunity to express its views on the aggregate reserve
price. NTCH also chose not to participate in the auction itself. Although NTCH claims that it “chose not
to enter the auction because the agreed minimum bid by DISH equal to the reserve price seemed likely to
far exceed the price at which at least some of the licenses could otherwise have been bought,”57 NTCH
appears to have misunderstood the fundamental purpose of a reserve price. A minimum opening bid is a
bidding tool used to accelerate the competitive bidding process,58 whereas a reserve price is an “absolute
minimum below which an item or items will not be sold.”59 Thus, because the Bureau established an
aggregate reserve price for the entire auction instead of on a license-by-license basis,60 a high bid for a
given license would have qualified as a winning bid, so long as the total proceeds from all the licenses in
the auction met the aggregate $1.564 billion reserve price. In short, NTCH had little to lose by entering
the auction and bidding what it considered a fair price for any licenses it wanted.
13.
We find no merit in NTCH’s argument that the aggregate reserve price is unsupported by
facts or precedent.61 As noted above, the Bureau had proposed to establish a reserve price based on the
aggregate of the anticipated gross bids for the H Block licenses instead of on the sum of the minimum
opening bids.62 The Bureau also requested comment on the methodology for calculating the reserve price.
63 No party opposed the use of an aggregate reserve price for Auction 96. NTCH never filed comments
in that proceeding, nor has it provided any evidence in its Petition for Reconsideration that the reserve
price selected did not reflect an appropriate estimate of the H Block’s market value. Indeed, NTCH

53

Application for Review at 2; see 47 CFR § 1.115(b)(2)(v).

54

Application for Review at 6.

55

See, e.g., KGAN Licensee, LLC, Memorandum Opinion and Order, 30 FCC Rcd 7664, 7665, para. 3 (2015).

See 47 CFR § 1.115(b)(2)(v); Skybridge Spectrum Foundation; On Request for Inspection of Records, 26 FCC
Rcd 13800, 13804, para. 14 n.28 (2011) (“Under 47 C.F.R. § 1.115(b)(2)(v), an application for review that rests on
alleged procedural error must show prejudice.”); see also 5 U.S.C. § 706 (requiring that a court reviewing an
“agency action” take “due account . . . of the rule of prejudicial error.”).
56

57

Application for Review at 6.

58

Auction 96 Comment Public Notice, 28 FCC Rcd at 10026, para. 54.

59

Id. at 10025, para. 50.

60

Auction 96 Procedures Public Notice, 28 FCC Rcd at 13064, paras. 172-73.

61

See Application for Review at 4-5.

62

Auction 96 Comment Public Notice, 28 FCC Rcd at 10026, para. 52.

63

Id. at 10026, para. 53.

845133
App.

Federal Communications Commission

FCC-18-122

acknowledges that the record could have supported an even higher aggregate reserve price,64 even while
claiming that the amount set by the Bureau was too high. We find the valuation selected by the Bureau to
have been reasonable. As suggested by T-Mobile,65 the Bureau balanced a variety of public interests and
objectives when setting the aggregate reserve price.66
14.
Section 309(j) of the Communications Act authorizes the Commission to set a
“reasonable” reserve price for auctions.67 As noted above, the Act, the Commission’s rules, and the
Bureau’s order in this case draw a distinction between the reserve price and the minimum opening bid
price. In setting a reserve price, the Commission must consider and balance a variety of public interests
and objectives.68 For the H Block licenses in Auction 96, the Spectrum Act directed that proceeds from
the auction be deposited into the Public Safety Trust Fund and be used for, among other things, a
nationwide, interoperable public safety broadband network by FirstNet.69 The Bureau balanced these
public interests and objectives when setting the aggregate reserve price at $1.564 billion, specifically
noting that “this amount will appropriately recover for the public a portion of the value of the spectrum,
especially in light of the Spectrum Act’s requirement to [fund FirstNet].”70 Consistent with the views of
commenters, this approach was designed “to accurately reflect overall demand,”71 so that licenses were
not acquired for below market values, and that the auction would raise sufficient amounts consistent with
the goals of the Spectrum Act, and that of Section 309(j) of “recover[ing] for the public a portion of the
value of the public spectrum resource.”72 The issue is not whether the aggregate reserve price is two or
four or seven times the minimum opening bid price,73 but whether it reasonably accommodates these
goals in the circumstances of a particular auction. Thus, we find no error in the Bureau’s decision to
adopt an aggregate reserve price consistent with statutory requirements and supported by publicly
available information, including information submitted by interested parties.
15.
To the extent NTCH seeks to reverse the Bureau’s establishment of this reserve price
based not on the evidence of record but rather based on the Bureau’s motive, we decline its invitation. It
has long been established that it is generally not appropriate “to probe the mental processes of the [agency
decisionmaker].”74 We adopt the same approach.

64

Application for Review at 4.

65

See T-Mobile Comments at 6-7.

Auction 96 Procedures Public Notice, 28 FCC Rcd at 13064, para. 172. The Bureau expressed its belief that the
aggregate reserve price would “appropriately recover for the public a portion of the value of the spectrum, especially
in light of the Spectrum Act’s requirement to deposit proceeds from this auction into the Public Safety Trust Fund to
be used for a nationwide, interoperable public safety broadband network by [FirstNet].” Id.
66

47 U.S.C. § 309(j)(4)(F); accord 47 CFR § 1.2104(c) (“The Commission may establish a reserve price or prices,
either disclosed or undisclosed, below which a license or licenses subject to auction will not be awarded.”).
67

68

47 U.S.C. § 309(j)(3).

Spectrum Act § 6401(c)(4) (codified at 47 U.S.C. § 309(j)(8)(F), 1457); see also id. § 6202(a) (codified at 47
U.S.C. § 1422(a)).

69

70

Auction 96 Procedures Public Notice, 28 FCC Rcd at 13064, para. 172.

71

Sprint Comments at 12; Cellular South Reply Comments at 5.

72

47 U.S.C. § 309(j)(3)(C).

73

See Application for Review at 5; NTCH MO&O, 28 FCC Rcd at 16113, para. 15 & n.38.

Morgan v. United States, 304 U.S. 1, 18 (1938); see also PLMRS Narrowband Corp. v. FCC, 182 F.3d 995, 1001
(D.C. Cir. 1999) (“It is fundamental that agency opinions, like judicial opinions, speak for themselves.” (internal
quotation marks and brackets omitted)).

74

845234
App.

Federal Communications Commission

FCC-18-122

16.
We also find no basis for further consideration of NTCH’s suggestions that the
Commission failed to disclose DISH’s request for additional technical flexibility or that the Commission
somehow denied potential bidders access to information about DISH’s Waiver Petition.75 NTCH fails to
acknowledge that the Bureau opened a proceeding approximately four months prior to the start of bidding
specifically for the purpose of soliciting comment on DISH’s request, a proceeding in which NTCH itself
participated.76 As was noted in the MO&O, by soliciting public comment on the DISH Waiver Petition
well in advance of the start of bidding, the Commission provided the public and all potential bidders with
information allowing them to “assess the impact of the existing rules and the possible impact, if any, of
the technical changes proposed by DISH” that were being considered.77 The existence of this proceeding
refutes NTCH’s contention that consideration of the DISH Waiver Petition was undisclosed to other
bidders.78
17.
Finally, we reject NTCH’s claim that the H Block auction was rendered unfair by grant of
the DISH Waiver Petition.79 NTCH provides no basis for its suggestion that DISH’s election could
somehow render the H Block licenses less valuable.80 NTCH fails to mention that the Bureau conditioned
any downlink operations on DISH’s compliance with power limits, out of band emissions restrictions and
other technical requirements to reduce risk of harmful interference to operations in adjacent bands
(including specifically the H Block).81 Likewise, we are unpersuaded by NTCH’s complaint that grant of
the DISH Waiver Petition gave DISH an unfair informational advantage in Auction 96 in that DISH (and
only DISH) knew whether the usefulness of the H Block would be enhanced by its downlink election for
the adjacent AWS-4 band.82 NTCH’s suggestion that potential Auction 96 applicants could not conduct
reasonable due diligence investigations because they lacked “access to the same information about the
rules governing the auction, the service requirements, and the potential for interference from adjacent
bands” has no basis.83 The Bureau observed in the NTCH MO&O that Auction 96 applicants could assess
the impact of existing rules and the possible impact, if any, of the technical changes proposed by DISH,
which were being considered in a separate proceeding.84 Regardless of which option DISH ultimately
elected, the interference environment at the time of the auction would be known and prospective H Block
licensees would be aware in advance that they would receive appropriate interference protections from

75

See Application for Review at 5-6.

See Wireless Telecommunications Bureau Opens Docket to Seek Comment on DISH Network Corporation’s
Petition for Waiver and Request for Extension of Time, Public Notice, 28 FCC Rcd 12987, 12987-88 (WTB 2013)
(DISH Waiver Public Notice). See generally WT Docket No. 13-225. We note that NTCH filed comments in
response to the DISH Waiver Public Notice. See NTCH, Inc. Comments, WT Docket No. 13-225 (Sept. 30, 2013).
76

NTCH MO&O, 28 FCC Rcd at 16113-14, 16114, paras. 17, 19; see also DISH Waiver Public Notice, 28 FCC Rcd
at 12987-88.
77

78

See Application for Review at 6.

79

Id. at 6-7.

80

Id. at 7.

See DISH Network Corporation; Petition for Waiver of Sections 27.5(j) and 27.53(h)(2)(ii) of the Commission’s
Rules and Request for Extension of Time, Memorandum Opinion and Order, 28 FCC Rcd 16787, 16798-801, 16806
paras. 26-33, 47 (WTB 2013) (DISH Waiver Order) (waiver conditions, technical requirements for downlink use).
81

82

Application for Review at 6-7.

83

Id. at 7.

NTCH MO&O, 28 FCC Rcd at 16114, para. 19. Notably, NTCH was itself a participant in that proceeding. See
DISH Waiver Order, 28 FCC Rcd at 16791, para. 9.
84

845335
App.

Federal Communications Commission

FCC-18-122

AWS-4 operators.85 All H Block bidders were (or should have been) aware of DISH’s waiver, and were
therefore able to take the terms of the waiver into account in their bidding strategies.86
18.
NTCH offers no basis for its assertion that the auction would be unfair because the
waiver would, in effect, give DISH an ability to “decide after that auction was over whether the H Block
would be 10 [megahertz of spectrum] or 7.5 [megahertz of spectrum], but only DISH would know which
one it would be.”87 The technical safeguards against harmful interference from operations in the adjacent
AWS-4 band were designed to allow each H Block licensee to have full use of each 10 megahertz license
awarded through Auction 96. DISH may have developed its own valuations for the H Block licenses
based on how it believed the downlink election could allow DISH to make more effective use of both
bands; however, we disagree that the existence of the election “could render the [H block] licenses less
valuable” for other bidders, even if not exercised until after the bidding had begun. In any case, we reject
NTCH’s claim that the auction was unfair because DISH might have had information about DISH’s own
potential use of the spectrum. In any spectrum auction, each applicant bids what it thinks the spectrum is
worth to it based on its own specific circumstances, not all of which may be known to its competing
bidders.88 Those variations in value do not render the auction unfair. This is consistent with allowing
bidders to factor their unique circumstances and values into their bids so that the auction can determine
which bidder values the spectrum the most.89 In any event, NTCH has advanced no basis for even
assuming that DISH would have even been in a position at the time of the H Block auction to have known
whether it would use the adjacent AWS-4 spectrum for downlink or uplink.90
IV.

ORDERING CLAUSE

19.
For the reasons discussed above, we hereby conclude that NTCH’s Application for
Review regarding the establishment of the reserve price for Auction 96 does not meet the procedural
requirements for an application for review and, on independent and alternative grounds, fails to satisfy the
applicable standard for obtaining review.

85

See DISH Waiver Order, 28 FCC Rcd at 16803, para. 39.

See id.; NTCH MO&O, 28 FCC Rcd at 16114, para. 19 (“urg[ing] bidders to consider any pending challenges or
waiver requests in determining whether and how much to bid on licenses at auction.”). See also Auction 96
Procedures Public Notice, 28 FCC Rcd at 13033-34, paras. 41-45 (due diligence research guidance for potential
Auction 96 participants).
86

87

Application for Review at 7.

The Commission has also recognized that an advantage of a multiple round auction design (as used in the H Block
auction) is that it provides bidders with information regarding the values that other bidders place on licenses in the
auction, resulting in more efficient outcomes. See Implementation of Section 309(j) of the Communications Act –
Competitive Bidding, Second Report and Order, 9 FCC Rcd 2348, 2362, paras. 82-84 (1994).
88

89

See id., 9 FCC Rcd at 2349-50, para. 5.

See DISH Waiver Order, 28 FCC Rcd at 16803, para. 39. As DISH had explained, the requested flexibility would
“allow it to be more successful in its efforts to find new uplink spectrum for pairing through, among other things,
strategic partnerships or transactions.” DISH Waiver Petition at 4.
90

845436
App.

Federal Communications Commission

FCC-18-122

20.
Accordingly, IT IS ORDERED, pursuant to Sections 4(i) and 5(c) of the
Communications Act of 1934, as amended, 47 U.S.C. §§ 154(i), 155(c), and Section 1.115 of the
Commission’s Rules, 47 CFR § 1.115, that the Application for Review filed by NTCH, Inc. on December
27, 2013, IS DISMISSED AND ALTERNATIVELY DENIED.
FEDERAL COMMUNICATIONS COMMISSION

Marlene H. Dortch
Secretary

845537
App.

845638
App.

845739
App.

845840
App.

845941
App.

846042
App.

846143
App.

846244
App.

Federal Communications Commission

DA 13-2409

Before the
Federal Communications Commission
Washington, D.C. 20554
In the Matter of
DISH Network Corporation
Petition for Waiver of Sections 27.5(j) and
27.53(h)(2)(ii) of the Commission’s Rules and
Request for Extension of Time

)
)
)
)
)
)
)

WT Docket No. 13-225

MEMORANDUM OPINION AND ORDER
Adopted: December 20, 2013

Released: December 20, 2013

By the Acting Chief, Wireless Telecommunications Bureau:
TABLE OF CONTENTS
Heading

Paragraph #

I. SUMMARY OF ACTION ..................................................................................................................... 1
II. BACKGROUND AND DISH PETITION ............................................................................................. 5
III. DISCUSSION ...................................................................................................................................... 10
A. Waiver Standard ............................................................................................................................ 11
B. Waiver of Technical Rules............................................................................................................. 12
1. DISH Petition .......................................................................................................................... 12
2. Application of Waiver Standard .............................................................................................. 18
3. Technical Analysis .................................................................................................................. 24
C. Election Period ............................................................................................................................... 38
D. One-Year Waiver of the Final Build-Out Milestone ..................................................................... 41
E. Waiver Conditions ......................................................................................................................... 44
F. Other Record Matters..................................................................................................................... 48
1. Reimbursement of BAS Clearing Costs .................................................................................. 48
2. NTCH Objections .................................................................................................................... 50
IV. ORDERING CLAUSES ....................................................................................................................... 55
APPENDIX – List of Comments and Reply Comments
I.

SUMMARY OF ACTION

1.
With this Memorandum Opinion and Order, the Wireless Telecommunications Bureau
(“Bureau”) grants waivers of the Commission’s rules, subject to certain conditions, in response to a
petition filed by DISH Network Corporation to provide DISH with flexibility to use 20 megahertz of
Advanced Wireless Services-4 (“AWS-4”) spectrum at 2000-2020 MHz (the “Lower AWS-4 Band”) for
uplink or downlink operations. We also waive DISH’s final AWS-4 build-out milestone, extending the

16787
App. 45

Federal Communications Commission

DA 13-2409

deadline from seven to eight years.1 In granting this relief, we determine that, provided DISH complies
with several conditions, the request meets our general waiver standard as well as requirements specific to
wireless services.
2.
The waiver is subject to DISH meeting the following two conditions. First, pursuant to
commitments made in its waiver request, DISH must bid in the upcoming H Block auction “either
directly or indirectly through an affiliated entity or designated entity, at least a net clearing price” equal to
the aggregate reserve price set for that auction of $1.564 billion.2 Second, DISH must file its uplink or
downlink election, which shall apply to all AWS-4 licenses, as soon as commercially practicable but no
later than 30 months after the release date of this Memorandum Opinion and Order.3 Failure by DISH to
comply with either of these conditions will automatically terminate the waivers granted in this order.
3.
In the event that DISH first preserves its election ability and then elects to use its Lower
AWS-4 Band spectrum for downlink operations, we specify the technical parameters such operations
must meet to avoid causing harmful interference to licensees of nearby spectrum bands. These
parameters are similar to those established for similar AWS and PCS downlink bands, including the
AWS-1 downlink band.
4.
In granting the DISH Petition, we decline to grant Sprint’s request that we impose a
specific cost sharing payment condition upon DISH should it be a winning bidder in the H Block auction,
because that payment requirement is already established by the Commission’s rules applicable to any
winning bidder in that auction. We also decline to address in this particular adjudication Sprint’s request
that we issue a blanket waiver to all future H Block licensees of certain H Block technical rules. Finally,
we reject NTCH’s various arguments requesting that we deny or delay consideration of the DISH
Petition.
II.

BACKGROUND AND DISH PETITION

5.
In 2012, the Commission’s AWS-4 Report and Order authorized full terrestrial use of the
2000-2020 MHz/2180-2200 MHz band, initially authorized only for Mobile Satellite Service (“MSS”)
and its associated Ancillary Terrestrial Component (“ATC”).4 This action followed a 2011 Commission
Order adding co-primary Fixed and Mobile terrestrial allocations to the 2 GHz MSS bands,5 which was
1

See DISH Network Corporation, Petition for Waiver of Sections 27.5(j) and 27.53(h)(2)(ii) and Request for
Extension of Time, WT Docket No. 13-225 (filed Sept. 9, 2013) (“DISH Petition”). DISH filed its waiver request
on behalf of itself and its wholly owned subsidiaries Gamma Acquisitions L.L.C. and New DBSD Satellite Services
G.P. Id. at 1. This order refers to DISH Network Corporation and these subsidiaries collectively as “DISH.”
2

See Auction of H Block Licenses in the 1915-1920 MHz and 1995-2000 MHz Bands Scheduled for January 14,
2014; Notice and Filing Requirements, Minimum Opening Bids, Upfront Payments, and other Procedures for
Auction 96, AU Docket No. 13-178, Public Notice, 28 FCC Rcd 13019, 13064 ¶ 172 (WTB 2013) (“Auction 96
Procedures PN”); NTCH, Inc. Petition for Reconsideration of Public Notice Announcing Procedures and Reserve
Price for Auction of H Block Licenses (Auction 96), AU Docket No. 13-176, Memorandum Opinion and Order, DA
13-2281 (WTB/Auctions Division, Nov. 27, 2013) (“Auction 96 Procedures PN Recon Order”); see also DISH
Petition at 15.
3

See infra at ¶¶ 39-40.

4

MSS is a radiocommunications service involving transmission between mobile earth stations and one or more
space stations. See 47 C.F.R. § 2.1(c). The ATC rules allowed authorized MSS operators to augment their satellite
services with terrestrial facilities. See Flexibility for Delivery of Communications by Mobile Satellite Service
Providers in the 2 GHz Band, the L-Band, and the 1.6/2.4 Bands, IB Docket Nos. 01-185, 02-364, Report and Order
and Notice of Proposed Rulemaking, 18 FCC Rcd 1962, 1964 ¶ 1 (2003).
5
Fixed and Mobile Services in the Mobile Satellite Service Bands at 1525-1559 MHz and 1626.5-1660.5 MHz,
1610-1626.5 MHz and 2483.5-2500 MHz, and 2000-2020 MHz and 2180-2200 MHz, ET Docket No. 10-142,
Report and Order, 26 FCC Rcd 5710 (2011) (“2 GHz Band Co-Allocation Order”).

16788
App. 46

Federal Communications Commission

DA 13-2409

intended to “lay the foundation for more flexible use of the band in the future, thereby promoting
investment in the development of new services and additional innovative technologies.”6 In the AWS-4
Report and Order, the Commission further observed that there had been “little commercial use of th[e]
[2000-2020 MHz and 2180-2200 MHz] spectrum for MSS and none for terrestrial (ATC) service,”7 and
replaced the ATC rules with Part 27 flexible use rules for terrestrial operations.8 The AWS-4 rules
designate the 2000-2020 MHz band for mobile and low power fixed (i.e., uplink) operations and the
2180-2200 MHz band for fixed and base station (i.e., downlink) operations.9 The Commission intended
this pairing to parallel that of the 2 GHz MSS band, so as to “minimize the possibility that AWS-4
operations could interfere with 2 GHz MSS operations and . . . offer the greatest opportunity for synergies
between the two mobile services.”10
6.
DISH is the sole holder of the 2 GHz MSS and corresponding AWS-4 licenses.11 DISH
acquired the 2 GHz MSS licenses in 2012.12 In granting DISH’s applications for transfer of control, the
International Bureau reiterated the Commission’s intent “to remove regulatory barriers in this band
through a rulemaking to unleash more spectrum for mobile broadband.”13 Subsequently, in the AWS-4
Report and Order, the Commission determined that the public interest would be served through grant of
AWS-4 operating authority to the existing MSS licensees in the band.14 Pursuant to this decision and
Section 316 of the Communications Act, the Commission proposed to modify DISH’s MSS licenses to
include the AWS-4 authorizations.15 On January 22, 2013, DISH accepted the proposed license
modifications.16 On February 15, the Wireless Telecommunications Bureau and the International Bureau

6

Id. at 5714, 5716 ¶¶ 8, 13.

7

Service Rules for Advanced Wireless Services in the 2000-2020 MHz and 2180-2200 MHz Bands, WT Docket
No. 12-70, Report and Order and Order of Proposed Modification, 27 FCC Rcd 16102, 16108, at ¶ 10 (2012)
(“AWS-4 Report and Order”).
8

See generally AWS-4 Report and Order, 27 FCC Rcd 16102. AWS-4 service refers to terrestrial wireless service
in the 2000-2020 MHz and 2180-2200 MHz frequency bands. Id. at 16103 ¶ 1.
9

47 C.F.R. § 27.5(j) (“Two paired channel blocks of 10 megahertz each are available for assignment as follows:
Block A: 2000-2010 MHz and 2180-2190 MHz; and Block B: 2010-2020 MHz and 2190-2200 MHz.”); AWS-4
Report and Order, 27 FCC Rcd at 16116 ¶ 33 (we “establish the AWS-4 spectrum band as 2000-2020 MHz uplink
band paired with 2180-2200 MHz downlink band”).
10

AWS-4 Report and Order, 27 FCC Rcd at 16117 ¶ 39.

11

The AWS-4 and associated MSS licenses are held by DISH subsidiaries Gamma Acquisitions L.L.C. (MSS call
sign E060430, AWS-4 call signs T060430001 through T060430176) and New DBSD Satellite Services G.P. (MSS
call sign E070272, AWS-4 call signs T070272001 through T070272176).

12

New DBSB Satellite Service G.P., Debtor-in-Possession, and TerreStar Licensee Inc., Debtor-in-Possession,
Request for Rule Waivers and Modified Ancillary Terrestrial Component Authority, Order, 27 FCC Rcd 2250,
2250-51, 2262 ¶¶ 1, 31 (2012).
13

Id. at 2261 ¶ 29 (citing 2 GHz Band Co-Allocation Order, 26 FCC Rcd 5710; Connecting America: The National
Broadband Plan, Recommendation 5.8.4 at 87-88 (2010), available at
http://hraunfoss.fcc.gov/edocs_public/attachment/DOC-296935A1.pdf (last visited Nov. 22, 2013) (“National
Broadband Plan”)).
14

AWS-4 Report and Order, 27 FCC Rcd at 16164-73, 16220-22, 16224 ¶¶ 161-86, 319-22, 331-32.

15

Id. at 16164-73, 16220-22, 16224 ¶¶ 161-86, 319-22, 331-34.

16

Letter from Jeffrey H. Blum, Senior Vice President & Deputy General Counsel, DISH, to Marlene H. Dortch,
Sec’y, Federal Communications Commission, WT Docket No. 12-70 (filed Jan. 22, 2013).

16789
App. 47

Federal Communications Commission

DA 13-2409

modified DISH’s MSS licenses to authorize DISH to provide AWS-4 service.17 The Wireless
Telecommunications Bureau issued DISH these modified licenses on March 7, 2013.
7.
In preparation for the H Block (1915-1920 MHz/1995-2000 MHz) Auction, on July 15,
2013, the Bureau released a Public Notice announcing Auction 96 and seeking comment on procedures
for conducting the auction, including a proposal to set a reserve price and what factors should be
considered in determining the reserve amount.18 On September 9, 2013, DISH filed an ex parte
submission supporting the proposal to set a reserve price and suggesting that the H Block spectrum
should be valued at “at least $0.50 per megahertz of bandwidth per population (“MHz-pop”) on a
nationwide aggregate basis.”19 On September 13, 2013, the Bureau released the Auction 96 Procedures
Public Notice establishing procedures and setting an aggregate reserve price of $1.564 billion.20 In doing
so, the Bureau indicated that “the limited comment we received on this issue is generally supportive of
our reserve price proposals, and we received no opposition to the use of a reserve,” and pointed to DISH’s
estimated valuation of at least $0.50 per MHz-pop based on prior auction results, secondary market
transactions, and financial institutions’ estimates as the basis for its calculation.21 On October 18, 2013,
NTCH, Inc. filed a petition for reconsideration of the Auction 96 Procedures Public Notice seeking
changes in the procedures and other relief.22 The Bureau subsequently denied NTCH’s petition.23
Auction 96 is scheduled to begin on January 22, 2014.
8.
On September 9, 2013, contemporaneous with its filings in support of an agreement on
interoperability in the 700 MHz band,24 DISH filed a waiver petition requesting the option to use the
Lower AWS-4 Band either for downlink or uplink operations.25 DISH also requested a one-year
extension of the final construction milestone for DISH’s AWS-4 licenses.26 DISH states that should the
Commission grant these requests, it will commit to: (1) filing an election with the Commission stating
whether it will use the AWS-4 2000-2020 MHz band for uplink or downlink “as soon as commercially
practicable, but no later than 30 months after the grant of [its] petition”; and (2) “either directly or
indirectly through an affiliated entity or designated entity, bidding at least a net clearing price equal to any
17

See generally Service Rules for Advanced Wireless Services in the 2000-2020 MHz and 2180-2200 MHz Bands,
Order of Modification, 28 FCC Rcd 1276 (2013) (“AWS-4 Order of Modification”).
18

See Auction of H-Block Licenses in the 1915-1920 MHz and 1995-2000 MHz Bands; Comment Sought on
Competitive Bidding Procedures for Auction 96, AU Docket No. 13-178, Public Notice, DA 13-1540, 28 FCC Rcd
10013, 10026 ¶¶ 52-53 (WTB 2013) (“Auction 96 Comment PN”). A summary of this public notice was published
at 78 Fed. Reg. 45524 (Jul. 29, 2013).
19

Letter from Jeffrey H. Blum, Senior Vice President & Deputy General Counsel, DISH, to Marlene H. Dortch,
Sec’y, Federal Communications Commission, AU Docket No. 13-178, at 1 (filed Sept. 9, 2013). In support of its
proposal, DISH stated that the 2006 AWS-1 spectrum auction resulted in an average valuation of $0.54 per MHzpop, and recent secondary market purchases of AWS spectrum valued it between $0.61 and $0.69 per MHz-pop,
with financial institutions giving current estimates of the value of the H Block spectrum at between $0.62 and $1.00
per MHz-pop. Id.
20

Auction 96 Procedures PN, 28 FCC Rcd at 13064 ¶ 172.

21

Id. at 13064 ¶¶ 170, 172.

22

Petition for Reconsideration of NTCH, Inc., AU Docket No. 13-178 (filed Oct. 18, 2013).

23

See Auction 96 Procedures PN Recon Order.

24

Letter from Jeffrey H. Blum, Senior Vice President & Deputy General Counsel, DISH, to Marlene H. Dortch,
Sec’y, Federal Communications Commission, WT Docket No. 12-69 (filed Sept. 10, 2013).
25

DISH Petition at 2.

26

Id. at 16-19. The AWS-4 construction deadlines are specified in section 27.14(q) of the Commission’s rules. 47
C.F.R. § 27.14(q).

16790
App. 48

Federal Communications Commission

DA 13-2409

aggregate nationwide reserve price established by the Commission in the upcoming H Block auction (not
to exceed the equivalent of $0.50 per MHz/POP).”27
9.
The Bureau gave public notice of the petition on September 13, 2013.28 Comments were
due on September 30, 2013, and reply comments were due on October 10, 2013, but the latter deadline
was extended to October 28, 2013.29 Three parties filed comments and two parties filed reply
comments.30 AT&T expressed support for the DISH proposal because it would promote the
Commission’s flexible use policies.31 NTCH expressed opposition to the proposal, as discussed below.32
Sprint does not oppose granting DISH’s request so long as the Commission can enforce DISH’s
commitment to bid the $1.564 billion reserve price and DISH fulfills its cost-sharing obligations should it
obtain an H Block license at auction.33 DISH agrees with Sprint’s position—stating that it “is
uncontested”—that grant of the DISH Petition should be conditioned upon DISH bidding the aggregate
reserve price in the H Block auction, but opposes Sprint’s request for a cost-sharing condition.34 DISH
also opposes NTCH’s comments.35 Further, on December 13, 2013, DISH submitted an ex parte letter
stating that, if its waiver request is granted and it elects to use the Lower AWS-4 Band for downlink, it
commits to comply with the requirements of certain additional AWS technical rules.36
III.

DISCUSSION

10.
As explained below, we grant the DISH Petition with certain conditions. In so doing, we
first review the claimed technical and other public interest benefits of DISH’s proposal, and examine
whether the public interest benefits and unique circumstances posed by DISH’s request meet our waiver
standard. We also identify the rules that must be waived in the event that the band is used for downlink
and analyze the interference environment associated with a possible downlink election to identify the
technical requirements necessary to ensure that harmful interference would not arise in the event of such
an election. Next, we discuss the election period that accompanies our grant of DISH’s waiver, allowing
it a specified period of time to elect whether to use the band as uplink or downlink. We then consider
DISH’s request for a one-year extension or waiver of the final build-out requirement. Thereafter we
enumerate and describe the express conditions that must be fulfilled for DISH to effectuate the relief
granted herein. Finally, we examine Sprint’s request that we condition a waiver grant on DISH’s timely
27

DISH Petition at 1-2, 15. DISH states that its bidding commitment is contingent on the waiver being granted at
least 30 days before the H Block auction commences. Id. at 2, 15.
28

Wireless Telecommunications Bureau Opens Docket to Seek Comment on DISH Network Corporation’s Petition
for Waiver and Request for Extension of Time, WT Docket No. 13-225, Public Notice, DA 13-1877 (Sept. 13,
2013), published at 78 Fed. Reg. 59,633 (Sept. 27, 2013).
29

Id.; Revised Filing Deadlines Following Resumption of Normal Commission Operations, Public Notice, DA 132025, at 6 (Oct. 17, 2013), published at 78 Fed. Reg. 66,002 (Nov. 4, 2013).

30

See Appendix A.

31

AT&T Comments at 2 (capitalization omitted).

32

See generally NTCH Comments.

33

See Sprint Comments at 3-7; Sprint Reply at 2 (“In its comments, Sprint expressed narrow and qualified support
for DISH’s waiver request, noting that the public interest benefits of revising the Commission’s AWS-4 technical
rules were uncertain and that a grant of the waiver should be subject to two important conditions.”)
34

DISH Reply at 2-3.

35

Id. at 4-6.

36

Letter from Jeffrey H. Blum, Senior Vice President and Deputy General Counsel, DISH, to Marlene H. Dortch,
Sec’y, Federal Communications Commission, WT Docket No. 13-225 (filed Dec. 13, 2013) (“DISH December 13
Letter”).

16791
App. 49

Federal Communications Commission

DA 13-2409

and complete reimbursement of the Broadcast Auxiliary Service (BAS) clearing expenses for any
H Block licenses it may be granted in the H Block auction and examine the arguments raised by NTCH in
opposition to the waiver request.
A.

Waiver Standard

11.
Waiver applicants are obligated to demonstrate “good cause” for obtaining a waiver of
the Commission’s rules.37 Under this standard, waivers are appropriate only if “both (i) special
circumstances warrant a deviation from the general rule, and (ii) such deviation will serve the public
interest.”38 Section 1.925 of the Commission’s rules, which pertains to wireless radio services, further
provides that “the Commission may grant a request for waiver if it is shown that: (i) The underlying
purpose of the rule(s) would not be served or would be frustrated by application to the instant case, and
that a grant of the requested waiver would be in the public interest; or (ii) in view of the unique or unusual
factual circumstances of the instant case, application of the rule(s) would be inequitable, unduly
burdensome or contrary to the public interest, or the applicant has no reasonable alternative.”39 The
Bureau is addressing this waiver request under its delegated authority pursuant to Sections 0.131 and
0.331 of the Commission’s rules.40
B.

Waiver of Technical Rules
1.

DISH Petition

12.
The AWS-4 band plan places AWS-4 uplink spectrum immediately adjacent to downlink
spectrum of another service (1995-2000 MHz, the “Upper H Block”). Because of these contrasting but
adjacent uses, the AWS-4 rules impose carefully calibrated power and out-of-band emission (“OOBE”)
limits on the 2000-2020 MHz band in order to protect operations in the adjacent 1995-2000 MHz band,
and require AWS-4 licensees to accept limited interference from operations in that adjacent band.41
Correspondingly, the H Block rules impose restrictive OOBE limits on the 1995-2000 MHz band in order
to protect operations in the 2005-2020 portion of the AWS-4 band.42

37

47 C.F.R. § 1.3.

38

See, e.g., Lazo Technologies, Inc., Order on Reconsideration, 26 FCC Rcd 16661, 16668 & n.56 (2011); see also
Northeast Cellular Tel. Co. v. FCC, 897 F.2d 1164 (D.C. Cir. 1990).

39

47 C.F.R. § 1.925(b)(3). This rule applicable to wireless services requires “substantially the same” showing as 47
C.F.R. § 1.3. Barry P. Lunderville, Memorandum Opinion and Order, 28 FCC Rcd 665 ¶ 14 n.51 (2013).

40

47 C.F.R. §§ 0.131, 0.331.

41

AWS-4 Report and Order, 27 FCC Rcd at 16111, 16126-45, 16157-61 ¶¶ 18, 61-100, 135-51; see also Service
Rules for Advanced Wireless Services H Block—Implementing Section 6401 of the Middle Class Tax Relief and
Job Creation Act of 2012 Related to the 1915-1920 MHz and 1995-2000 MHz Bands, WT Docket No. 12-357,
Report and Order, 28 FCC Rcd 9483, 9503 ¶ 50 (2013) (“H Block Report and Order”).

42

H Block Report and Order, 28 FCC Rcd at 9508-13 ¶¶ 63-73. The OOBE limits from the Upper H Block were set
such that “the overall interference imposed on the AWS-4 uplink operations [at 2000-2020 MHz] is no more than
currently exists, to the greatest extent possible, without imposing a harsh and undue burden on Upper H Block
downlink operations.” Id. at 9509 ¶ 66. To balance the utility of the H Block and the AWS-4 spectrum bands, the H
Block OOBE limit was set at 43+10log(P) dB overall, with a tighter limit of 70+10log(P) dB imposed on emissions
into the 2005-2020 MHz band. See id. at 9508-9513 ¶¶ 63-73. In balancing the needs of these bands, the
Commission also required AWS-4 and 2 GHz MSS licensees to accept harmful interference from lawful Upper H
Block operations if such interference is due to OOBE into the 2000-2005 MHz band or due to receiver overload into
the 2000-2020 MHz band. See AWS-4 Report and Order, 27 FCC Rcd at 16135, 16160-61, 16220 ¶¶ 80-81, 149-51,
319.

16792
App. 50

Federal Communications Commission

DA 13-2409

13.
DISH requests waiver of the Commission’s rules that specify that the Lower AWS-4
Band be used for uplink operations, asking that we provide it with the flexibility to elect whether to use
this band for uplink or downlink operations. DISH commits to making this election as soon as
commercially practicable, but no later than 30 months after any grant of its petition.43 Specifically, DISH
seeks waivers of Commission rules 27.5(j) (specifying, inter alia, the AWS-4 frequencies and frequency
pairings), 27.50(d)(7) (Lower AWS-4 Band power limits), 27.53(h)(2)(ii) (Lower AWS-4 Band out-ofband emission (OOBE) limits), 27.65 (Lower AWS-4 Band acceptance of interference from operations at
1995-2000 MHz), and “to the extent required . . . other technical AWS-4 rules . . . that impose technical
requirements on AWS-4 uplink operations at 2000-2020 MHz, but would not on their face apply to
DISH’s proposed downlink terrestrial operations in the 2000-2020 MHz band.”44
14.
DISH asserts that waiving the necessary technical rules to permit terrestrial downlink use
of the 2000-2020 MHz band would increase the utility of this AWS-4 spectrum.45 Further, DISH claims
that “more flexible use of AWS-4 spectrum may allow it to best optimize its 2 GHz satellite and terrestrial
services.”46 DISH also contends that the waiver would provide “increase[d] protection and utility” to the
Upper H Block because, should DISH decide to use 2000-2020 MHz for downlink, it “would commit . . .
to accept a less restrictive OOBE limit on H Block emissions above 2000 MHz.”47 DISH states that “the
requested flexibility would have no adverse operational impact on any other Commission licenses.”48
DISH proposes conditioning grant of the waivers it seeks on standard power and OOBE limits generally
applicable to high-power downlink operations where adjacent-band usage is compatible.49 DISH
additionally “commits to comply with any requirements imposed on DISH as an AWS licensee pursuant
to Sections 27.1133, 27.55(a)(1), 27.50(d)(3), and 27.50(d)(10) of the Commission’s rules.”50
15.
DISH also argues that grant of the waiver could enhance the utility and value of adjacent
bands, H and J Blocks, with the potential to provide substantial economic benefits from harmonized
PCS/AWS operations.51 Specifically, with regard to the 2020-2025 MHz band (formerly the “Lower J
Block”), which the Commission has proposed designating for uplink use in the AWS-3 proceeding,52
DISH argues that, if 2000-2020 MHz were a downlink band, “the lower J Block could also be auctioned
for downlink operations” in a manner “analogous to the existing AWS-1 downlink and the BAS
arrangement, which has a successful co-existence track record.”53

43

DISH Petition at 1-2.

44

Id. at 2 n.2; see 47 C.F.R. §§ 27.5(j), 27.50(d), 27.53(h)(2)(ii), 27.65.

45

DISH Petition at 9-10.

46

Id. at 13 (footnote omitted).

47

Id. at 14.

48

Id. at 2.

49

Id. at 11.

50

DISH December 13 Letter.

51

DISH Petition at 14.

52

Amendment of the Commission’s Rules with Regard to Commercial Operations in the 1695-1710 MHz, 17551780 MHz, and 2155-2180 MHz Bands, GN Docket No. 13-185, Notice of Proposed Rulemaking and Order on
Reconsideration, 28 FCC Rcd 11479, 11500, 11501 ¶¶ 44, 48 (2013) (“AWS-3 Notice of Proposed Rulemaking”).
The Commission’s proposal envisions using the 2020-2025 MHz band either with yet-to-be-identified spectrum or
unpaired. Id. at 11482 ¶¶ 2-3.
53

DISH Petition at 15-16.

16793
App. 51

Federal Communications Commission

DA 13-2409

16.
Overall, DISH concludes, “[t]he requested flexibility may permit AWS-4 operations in
the 2000-2020 MHz band to be harmonized and co-directional with operations in the PCS band, and the
H and J Blocks, thus providing up to 30 MHz of contiguous downlink spectrum.”54 DISH suggests that
this spectrum harmonization could facilitate commercial deployment of the new spectrum, and reduce
user equipment complexity and cost.55 Further, DISH states its commitment to bid “at least a net clearing
price” equal to the aggregate reserve price of $1.564 billion in the H block auction would provide critical
funding for the nationwide, interoperable public safety broadband network to be operated by the First
Responder Network Authority (FirstNet).56
Finally, DISH asserts that grant of its waiver would result in several non-technical
17.
benefits, including accelerated broadband deployment, increased supply of downlink spectrum, increased
wireless broadband competition, enhanced 700 MHz interoperability, and increased revenues from the H
and J Block auctions.57
2.

Application of Waiver Standard

18.
After consideration of the DISH Petition and the record compiled in this proceeding, we
conclude that, subject to the conditions outlined below, the technical rule waivers sought by DISH are
warranted based on the unique factual circumstances of DISH’s status as a licensee of both AWS-4 and
2 GHz MSS licenses. In these circumstances, application of the rules for which DISH seeks a waiver
would be both unduly burdensome and contrary to the public interest.
19.
As noted above, the central purposes of the Commission’s proceedings leading to the
AWS-4 Report and Order have been to lay the foundation for more flexible use of this band, and to
promote investment in new and innovative mobile broadband services by unleashing more spectrum for
these critical services. We agree with AT&T that the DISH Petition “falls squarely within the scope of
the Commission’s highly successful flexible use policy.”58 Flexibility encourages research, innovation,
and investment, spurs the development of new technologies and their deployment to customers, and
overall encourages efficient use of spectrum.59 By affording licensees the flexibility to make fundamental
choices about service offerings, taking into account market factors such as consumer demand, availability
of technology, and competition, the Commission’s approach tends to result in efficient and highly-valued
uses of spectrum.60 Typically, the Commission limits technical flexibility only where needed to prevent
harmful interference to other users of the spectrum. The Commission followed this approach in the
54

Id. at 16.

55

Id. While DISH seeks the ability to elect to use both AWS-4 bands for downlink operations, it does not seek any
waiver of the configuration of the 2 GHz MSS band plan. DISH acknowledges that its proposal “may introduce
certain MSS/AWS-4 interference issues,” but maintains that, due to its common control of both MSS and AWS-4
networks, it will be able to mitigate interference and use its MSS facilities dynamically to augment terrestrial
services. Id. at 12-14. Specifically, DISH states that “[o]nly DISH is in a position to implement a unified reversemode solution.” Id. at 13 n.25.
56

DISH Petition at 2.

57

Id. at 3-5.

58

AT&T Comments at 2.

59

See, e.g., Allocation of Spectrum Below 5 GHz Transferred from Federal Government Use, ET Docket No. 94-32,
Second Report and Order, 11 FCC Rcd 624, 631 ¶ 15 (1995); AWS-4 Report and Order, 27 FCC Rcd at 16187-88
¶¶ 224-25.

60
See Spectrum Policy Task Force, ET Docket No. 02-135, Report, p. 16 (rel. Nov. 15, 2002), available at
http://hraunfoss.fcc.gov/edocs_public/attachmatch/DOC-228542A1.pdf (last visited Nov. 22, 2013); AWS-4 Report
and Order, 27 FCC Rcd at 16186-88 ¶¶ 221-26; see also DISH Petition at 8-9 n.18 (quoting Spectrum Policy Task
Force); AT&T Comments at 2.

16794
App. 52

Federal Communications Commission

DA 13-2409

AWS-4 Report and Order, stating that its aim in establishing technical rules is to maximize the flexible
use of the spectrum while appropriately protecting operations in adjacent and nearby bands from harmful
interference.61
20.
We find that a grant of the DISH request for flexibility to use the 2000-2020 MHz band
for either uplink or downlink would meet these policy objectives of the AWS-4 Report and Order,
provided the spectrum use conforms to the interference protections discussed below. Grant of the request
would also serve a variety of other public interest goals described below, by obviating in the event of
downlink use the need for certain interference limitations that would otherwise govern both AWS-4 and
adjacent H Block operations, by promoting a variety of statutory goals underlying both the service rules
for H Block licenses to be offered at auction and the auction procedures for the bidding scheduled to
begin in January 2014,62 and by furthering the intent of the Spectrum Act to use the proceeds of the H
Block auction to help finance the construction of a nationwide public safety broadband network
(FirstNet).63 Two aspects of the rules established in the Commission’s AWS-4 Report and Order—the
rules designating the 2000-2020 MHz band for uplink operations and the 2180-2200 MHz band for
downlink and the determination that same-band, separate operator sharing between mobile satellite and
terrestrial operations remained “impractical”—were intended to minimize the possibility of interference
between terrestrial and satellite services. Because DISH controls both of these networks and all of the
associated spectrum and possesses the singular ability to design, integrate, and direct the operations of
both terrestrial and satellite services, we conclude that these unique circumstances warrant a deviation
from the rule in light of the corresponding reduction of interference constraints between AWS-4 and
H Block operations resulting from the alignment of downlinks in these two services, and the substantial
additional public interest benefits from such a waiver.
Beyond the benefits inherent in flexibility, the technical waivers DISH seeks offer the
21.
potential for compelling public interest benefits, including improved spectrum management. Should the
Lower AWS-4 Band be used for downlink, it would effectively serve as an extension of the broadband
PCS and H Block downlink bands, collectively at 1930-2000 MHz. This is analogous to the
Commission’s finding in the H Block Report and Order that “[a]s the 1930-1995 MHz PCS band is used
for downlink transmissions, the 1995-2000 MHz band [also used for downlink transmissions], in many
respects, will operate as an extension of the PCS band.”64 Band plan harmonization unshackles the 20002020 MHz band from restrictive technical limits, potentially opening the band to more effective use.65

61

AWS-4 Report and Order, 27 FCC Rcd at 16124, 16126 ¶¶ 55, 61.

62

See 47 U.S.C. § 309(j)(3)(A) (“development and rapid deployment of new technologies, products, and services for
the benefit of the public, including those residing in rural areas”), 309(j)(3)(C) (“recovery for the public of a portion
of the value of the public spectrum resources made available for commercial use”), 309(j)(3)(D) (“efficient and
intensive use of the electromagnetic spectrum”), 309(j)(4)(F) (reserve price or minimum bid required absent
Commission determination that it is not in the public interest). We observe that the Bureau established a reserve
price after carefully considering the record it received on its proposal to do so, mindful of its obligation to promote
recovery for the public of a portion of the value of the spectrum resource under Section 309(j)(3)(C).
63

See 47 U.S.C. §§ 309(j)(8)(F), 1457; H Block Report and Order, 28 FCC Rcd at 9486 ¶ 3 & n.16.

64

H Block Report and Order, 28 FCC Rcd at 9493 ¶ 21.

65

See Sprint Comments at 4; Sprint Reply at 3-4. According to DISH, implementation of the terrestrial band plan
change may also open the door to possible harmonization of the 2020-2025 MHz band (also referred to as the J
Block), if that band were ultimately devoted to downlink operations. DISH Petition at 15-16. However, the
Commission has currently proposed to use this band for uplink. See AWS-3 Notice of Proposed Rulemaking, 28
FCC Rcd at 11497 ¶ 35. Because that question will be resolved in WT Docket No. 12-185 based on the record in
that proceeding, we do not rely in our decision here on any such potential harmonization.

16795
App. 53

Federal Communications Commission

DA 13-2409

Indeed, the Commission previously suggested the benefits of this type of band plan harmonization when
it proposed making 1995-2025 MHz a PCS expansion downlink band in the AWS-4 Notice of Inquiry.66
22.
These benefits, however, would be insufficient to support grant of a waiver if the
proposed operation would cause harmful interference to other services. DISH asserts that the proposed
downlink operation would not adversely affect other licensees.67 Our review, coupled with the technical
requirements we set forth below, confirms that assertion. Because DISH is the sole 2 GHz MSS/AWS-4
licensee, as noted above, it can manage co-existence of its integrated MSS/AWS-4 service, as well as any
co-channel AWS-4 interference that may arise; and there are no other licensees in this band that might be
adversely affected by the waivers sought. And as discussed further below, we find that the interests of
operators in adjacent bands can be fully protected in the event of a downlink election by technical
conditions common to similarly situated high-power downlink operations, in lieu of the technical
requirements premised on low-power uplink operation that now apply to the 2000-2020 MHz band.
Moreover, downlink election would result in increased spectrum utilization and efficiency as it would
obviate the need for technical constraints designed to address interference associated with uplink use in
the band.68
23.
In light of the above findings, we conclude that DISH has justified a waiver based on the
special circumstances described above, the consistency of its proposals with the core purpose of the
AWS-4 rules to provide flexible use terrestrial spectrum, the potential for reduced risk of interference
between the Lower AWS-4 Band and the adjacent Upper H Block, the benefits from effectively extending
the PCS and H Block downlink bands, and the additional public interest benefit of DISH committing to
bid “at least a net clearing price equal to any aggregate reserve . . . in the upcoming H block auction (not
to exceed [$1.564 billion]).”69 In setting $1.564 billion as the aggregate reserve price for the H Block
auction, the Bureau observed that it would help contribute to meeting the statutory goal of recovery for
the public of a portion of the value of the spectrum resource, which in this case will contribute to funding
FirstNet, as contemplated by the Spectrum Act.70 Therefore, we find that DISH’s commitment in this
regard would further the public interest. Moreover, granting a waiver in this instance will potentially
enhance wireless broadband competition, encourage innovation, speed up broadband deployment, and
increase the supply of in-demand downlink spectrum to be used on an unpaired basis or paired with nonAWS-4 spectrum. Accordingly, we find it in the public interest and consistent with sections 1.3 and
1.925 of the Commission’s rules, as well as the underlying purpose of the rules from which DISH seeks
relief, to waive the Commission’s technical rules for the Lower AWS-4 Band to permit the election of
downlink use of this band, subject to the specific conditions below, and that application of these rules in
this unique circumstance would be unduly burdensome.
3.

Technical Analysis

24.
Having determined that there is good cause to waive the rules to provide AWS-4
licensees with flexibility to use the Lower AWS-4 Band for downlink operations, we must clearly identify
which specific technical rules we are waiving and the requirements necessary for downlink use of this
66

See Service Rules for Advanced Wireless Services in the 2000-2020 MHz and 2180-2200 MHz, Notice of
Proposed Rulemaking and Notice of Inquiry, 27 FCC Rcd 3607, 3607-3611 ¶¶ 137-47 (2012). Because of the band
plan established in the AWS-4 Report and Order, including setting the 2000-2020 MHz band for uplink, the
Commission declined to pursue the AWS-4 Notice of Inquiry concept. AWS-4 Report and Order, 27 FCC Rcd
at 16222 ¶ 323.

67

See DISH Petition at 2.

68

Cf. AWS-4 Report and Order, 27 FCC Rcd at 16127-45 ¶¶ 64-100.

69

DISH Petition at 2.

70

Auction 96 Procedures PN, 28 FCC Rcd at 13063 ¶ 172; Auction 96 Procedures PN Recon Order at ¶ 14.

16796
App. 54

Federal Communications Commission

DA 13-2409

band. We agree with Sprint that we “should not permit DISH to decide which technical rules it wishes to
comply with,”71 and rather must specify those requirements ourselves.72 Only by doing so will we
provide the necessary certainty for AWS-4 licensees to use the Lower AWS-4 Band for downlink
operations (should they so elect), as well as ensure that adjacent and nearby bands are appropriately
protected from harmful interference from downlink operations in the Lower AWS-4 Band.73
25.
Waiver of technical limitations designed for uplink use. We agree with DISH that rules
27.5(j) (as it pertains to the pairing of AWS-4 spectrum blocks), 27.50(d)(7), 27.52(h)(2)(ii), and 27.65
are either inappropriate or unnecessary should the Lower AWS-4 Band be used for downlink operations.
First, section 27.5(j) requires, inter alia, that 2000-2010 MHz and 2180-2190 MHz operate as paired
frequencies with 2010-2020 MHz and 2190-2200 MHz, respectively.74 To the extent that channel blocks
A and B for the Lower AWS-4 Band at 2000-2020 MHz are ultimately used for downlink operations,
there is no need to require the blocks to be used in a paired manner with their counterparts in the Upper
AWS-4 Band at 2180-2200 MHz. While DISH could choose to aggregate operations of different
downlink blocks, it could also choose to operate them as distinct bands, including, perhaps, pairing either
or both spectrum bands with non-AWS-4 uplink bands.75 Second, section 27.50(d)(7) specifies the power
limits for uplink operations in the Lower AWS-4 Band.76 Although power limits for downlink operations
will be necessary, the limits set in section 27.50(d)(7) were based on the use of mobile uplink in the band,
not on the use of base or fixed stations for downlink operations in the band.77 Accordingly, the limits in
this section are not appropriate should downlink operations be used in the band. Third, 27.53(h)(2)(ii)
sets forth the OOBE limits for operations in the Lower AWS-4 Band.78 The Commission adopted this
rule because of concerns that uplink use of the 2000-2020 MHz band would harm future downlink
operations in the adjacent 1995-2000 MHz band,79 concerns that would be obviated if both 1995-2000
MHz and 2000-2020 MHz bands were used for downlink. Fourth, section 27.65 requires that terrestrial
operations in 2000-2020 MHz accept certain interference described in section 27.65(a).80 This
requirement was premised on a scenario in which base-to-mobile operations in the 1995-2000 MHz band
might cause interference to base station receivers in the 2000-2020 MHz band.81 Such a scenario would
not occur if the 2000-2020 MHz band is used for downlink operations. Accordingly, we determine that
waiving these four rules in the event of downlink operations in the Lower AWS-4 Band is appropriate for
all of the foregoing reasons, and because the purpose of the rules premised on uplink operations would
not be served by their application to downlink operations.82 We have also examined the remainder of the

71

See Sprint Reply at 5.

72

See Sprint Comments at 4 (“the Commission should ensure . . . it has the ability to enforce DISH’s commitments
and ensure its compliance with the Commission’s rules”).

73

See AWS-4 Report and Order, 27 FCC Rcd at 16124 ¶ 55 (the Commission’s “aim in establishing technical rules
is to maximize the flexible use of spectrum while appropriately protecting operations in neighboring bands.”);
AT&T Comments at 2 (“flexibility should be allowed, but only consistent with interference constraints”).
74

47 C.F.R. § 27.5(j)(1).

75

See DISH Petition at 3-4.

76

47 C.F.R. § 27.50(d)(7).

77

See AWS-4 Report and Order, 27 FCC Rcd at 16157-60 ¶¶ 135-48.

78

47 C.F.R. § 27.53(h)(2)(ii).

79

AWS-4 Report and Order, 27 FCC Rcd at 16126-27 ¶¶ 62-63.

80

47 C.F.R. § 27.65.

81

AWS-4 Report and Order, 27 FCC Rcd at 16160-61 ¶¶ 149-50.

16797
App. 55

Federal Communications Commission

DA 13-2409

Commission’s AWS-4 rules and determine that no additional rules need to be waived in order for the
Lower AWS-4 Band to be used for downlink operations. The following table lists the technical rules we
waive in this order.
AWS-4 Technical Rules Conditionally Waived
Part 27 Rule Section
27.5(j)
27.53(h)(2)(ii)
27.50(d)(7)
27.65(a)

Description
AWS-4 Frequency pairings
OOBE limits on AWS-4 mobiles (uplink)
Power limits on uplink
Acceptance of Interference in 2000-2020 MHz

26.
Technical requirements for downlink use. In support of its waiver request, DISH states
that it “would commit . . . to operate any future downlink terrestrial fixed or base stations in the 20002020 MHz band consistent with the technical requirements applicable to other fixed/base stations in the
AWS-4 band at 2180-2200 MHz and adjacent operational PCS/AWS bands.”83 DISH proposes to operate
downlink operations in the Lower AWS-4 Band at power levels consistent with those set forth in sections
27.50(d)(1) and (d)(2) of the Commission’s rules and subject to OOBE limits consistent with those
specified in sections 27.53(h)(1) and (h)(3) of the Commission’s rules.84 DISH also proposes to operate
downlink operations in the Lower AWS-4 Band in a manner consistent with the requirements on an AWS
licensee of “Sections 27.1133, 27.55(a)(1), 27.50(d)(3), and 27.50(d)(10) of the Commission’s rules with
respect to [the Lower AWS-4 Band].”85 Sprint argues that, if DISH is allowed to operate the Lower
AWS-4 Band as downlink, DISH should be required to follow many of the requirements that apply to
Part 27 services in general and Upper H Block operations in particular.86 Sprint asserts that DISH should
be required to meet power requirements that apply to adjacent downlink operations in the Upper H Block,
such as (1) section 27.50(d)(5), which contains an equipment authorization requirement and an average
power measurement requirement,87 and (2) section 27.50(d)(6), which contains peak transmit power
measurement requirements.88 Sprint further argues that DISH should be required to coordinate highpowered Lower AWS-4 downlink operations with adjacent H Block licensees located within 120
kilometers,89 which would mirror a requirement in the Commission’s rules that Upper H Block licensees
coordinate such operations with adjacent PCS G Block licensees.90 In addition, Sprint argues that we
should require DISH to comply with certain rules that generally apply to all Part 27 services, including
sections 27.53(i) and 27.53(n), which enable the Commission to require greater attenuation when an
emission outside an AWS operator’s authorized bandwidth causes harmful interference.91 Finally, Sprint
(Continued from previous page)
82
In waiving section 27.5(j) of the Commission’s rules, we waive only the requirement that the AWS-4 bands be
paired. We do not waive the specifying of 2000-2020 MHz and 2180-2200 MHz as AWS-4 spectrum.
83

DISH Petition at 11.

84

Id. at 11-12; see 47 C.F.R. §§ 27.50(d)(1)-(2), 27.53(h)(1), (3).

85

DISH December 13 Letter.

86

See Sprint Reply at 4-6.

87

47 C.F.R. § 27.50(d)(5).

88

47 C.F.R. § 27.50(d)(6).

89

Sprint Reply at 5.

90

See 47 C.F.R. § 27.50(d)(10).

91

47 C.F.R. § 27.53(i), (n).

16798
App. 56

Federal Communications Commission

DA 13-2409

argues that we should require DISH to comply with all the technical rules in Subpart C of Part 27 and
“other appropriate sections” of our technical rules.92
27.
In waiving the above rules, we agree with Sprint that AWS-4 licensees must continue to
comply with all applicable Commission rules not expressly waived by this order. For example, we
continue to require, as the Commission determined in the AWS-4 Report and Order, that “any licensee of
AWS-4 operating authority . . . comply with other [non-Part 27] rule parts that pertain generally to
wireless communications services.”93 DISH must also continue to comply with all Part 27 requirements,
technical or otherwise, except those waived in this order. These include, but are not limited to, sections
27.50(d)(5)-(6), 27.53(i), and 27.53(n) of the Commission’s rules cited by Sprint.94 Thus, if DISH elects
to use 2000-2020 MHz for terrestrial downlink operations, it will be subject to any rules that are generally
applicable to downlink operations, except to the extent they are expressly waived by this order.
28.
In addition, we condition DISH’s waiver on further technical requirements necessary to
govern the operation of downlink operations in the Lower AWS-4 Band. These requirements are
necessary to prevent downlink operations from causing harmful interference to co-channel or adjacent or
nearby operations. DISH has committed to comply with these requirements if it elects to use the Lower
AWS-4 Band for downlink operations.95 First, to avoid the possibility of co-channel interference in the
event that the Lower AWS-4 Band is used for downlink operations, field-strength limits are necessary to
prevent harmful interference between geographically adjacent licensees operating in the same spectrum.96
We find that the required field-strength limits in 27.55(a)(1) should apply to downlink operations in the
2000-2020 MHz band in the same manner that they apply to downlink operations in the AWS-4 21802200 MHz band and other similar downlink AWS and wireless communications service bands.97
Accordingly, we impose these limits on downlink operations as waiver conditions.
Second, for downlink operations in the Lower AWS-4 Band, and to avoid harmful
29.
interference into adjacent and nearby bands, DISH has conditioned its request for relief on application of
the power-limit requirements contained in section 27.50(d)(1), which specifies base or fixed equivalent
isotropically radiated power (EIRP) in rural areas, and in section 27.50(d)(2), which specifies base or
fixed EIRP in non-rural areas.98 We agree that this condition is appropriate and necessary to ensure
against harmful interference, and we accordingly adopt it as a condition of grant of the waivers provided
here. These are the same power limits that the Commission has consistently adopted for base stations in
other AWS services, and are substantially similar to the power limits for PCS base stations.99 We also
require AWS-4 licensees to coordinate with all Government and non-Government satellite entities
operating in the 2025-2110 MHz band to the same extent that AWS-1 downlink operations in the 21102155 MHz band are required to coordinate with such operations in that band as specified in rule
92

47 C.F.R. Part 27. Sprint also argues that our waiver grant should include (1) a waiver of certain out-of-band
emissions limits on H Block licensees in the event that DISH elects to use lower AWS-4 as downlink, see 47 C.F.R.
§ 27.53(h)(2)(iv), and should be conditioned on DISH complying with certain cost-sharing rules, see 47 C.F.R. §§
1021 (cost-sharing reimbursement obligation of licenses at 1915-1920 MHz), 1031 (cost-sharing reimbursement
obligation of licensees at 1995-2000 MHz). See Sprint Reply at 6. We address these arguments below. See infra at
¶¶ 34-37, 48-49.
93

See, e.g., AWS-4 Report and Order, 27 FCC Rcd at 16203-04 ¶¶ 277-78.

94

Sprint Reply at 5.

95

DISH Petition at 10-12; DISH December 13 Letter.

96

C.f. AWS-4 Report and Order, 27 FCC Rcd at 16154 ¶ 125.

97

47 C.F.R. § 27.55(a)(1).

98

47 C.F.R. § 27.50(d)(1), (d)(2); see DISH Petition at 11.

99

H Block Report and Order, 28 FCC Rcd at 9504-06 ¶¶ 53, 57.

16799
App. 57

Federal Communications Commission

DA 13-2409

27.50(d)(3).100 AWS downlink operations in the 2000-2020 MHz band would create substantially the
same interference environment for operations in the 2025-2110 MHz band as do AWS downlink
operations in the 2110-2155 MHz band. In addition to setting power limits for AWS-1 operations to
protect operations in the 2025-2110 MHz band, the Commission established coordination requirements
for AWS-1 licensees to protect certain operations in the 2025-2110 MHz band, which are set forth in rule
27.50(d)(3).101 As DISH acknowledges, those coordination requirements have proven successful for
avoiding harmful interference.102 We therefore condition the waivers granted here on compliance with the
same requirement on AWS-4 licensees in the event they elect to use the Lower AWS-4 Band for
downlink operations.103
30.
Third, we similarly determine that, in a downlink scenario, 2000-2020 MHz licensees
should be required, as a condition of DISH’s waiver, to coordinate with adjacent 1995-2000 MHz
licensees in the same manner that section 27.50(d)(10) requires 1995-2000 MHz H Block licensees to
coordinate with adjacent 1990-1995 MHz (PCS G Block) licensees.104 Just as the Commission found in
the H Block Report and Order that advanced coordination of high-powered Upper H Block downlink
operations was consistent with the Commission’s statutory obligation to protect an adjacent band,105 we
determine here that advanced coordination of high-powered Lower AWS-4 operations would be
consistent with protecting the adjacent Upper H Block band. Thus, if DISH elects to use the Lower
AWS-4 Band for downlink, licensees operating a base or fixed station in the 2000-2020 MHz band
utilizing a power greater than 1640 watts EIRP and greater than 1640 watts/MHz EIRP are required to
coordinate in advance with all Upper H Block licensees authorized to operate on adjacent frequency
blocks in the 1990-1995 MHz band within 120 kilometers of the base or fixed station operating in this
band.
Fourth, we clarify the OOBE limits that would apply to downlink use of the Lower
31.
AWS-4 Band, and we impose them as a condition of DISH’s waiver. Unlike for power limits, where
waiver of the rule applicable to the Lower AWS-4 Band would leave us without a specific limit absent
our specifying the applicable limit in this order, the manner in which the OOBE limit rule—27.53(h)—is
drafted results in application of a specific OOBE limit for downlink use of the band. Specifically, by
100

See 47 C.F.R. § 27.50(d)(3).

101

See Biennial Regulatory Review – Amendment of Parts 1, 22, 24, 27 and 90 to Streamline and Harmonize
Various Rules Affecting Wireless Radio Services, WT Docket No. 03-264, Third Report and Order, 23 FCC Rcd
5319, 5330-31 ¶ 26 (2008); Facilitating the Provision of Spectrum-Based Services to Rural Areas and Promoting
Opportunities for Rural Telephone Companies To Provide Spectrum-Based Services, WT Docket Nos. 02-381, 0114, 03-202, Report and Order and Further Notice of Proposed Rulemaking, 19 FCC Rcd 19078, 19133-4 ¶¶ 100-01
n.305 (2004). As discussed below, additional coordination requirements are contained in section 27.1133 of the
Commission’s rules. See infra ¶ 32 (discussing 47 C.F.R. § 27.1133).
102

DISH Reply at 16; see also Reply Comments of DISH Network Corporation, GN Docket No. 13-185, WT
Docket Nos. 07-195, 04-356, 07-16, 07-30, at 4-5 (filed Oct. 17, 2013).

103

In requiring compliance with this requirement, we clarify that AWS-4 licensees need not follow the coordination
requirements in section 27.50(d)(3) pertaining to the Broadband Radio Service in the 2155-2160 MHz band because
the Lower AWS-4 Band is not proximate to the 2155-2160 MHz Band.
In addition, we observe that the 2020-2025 MHz band, which is located between the Lower AWS-4 Band and the
2025-2110 MHz band is currently unassigned and service rules for that band are subject to an on-going proceeding.
See AWS-3 Notice of Proposed Rulemaking, 28 FCC Rcd at 11497 ¶ 35.
104

47 C.F.R. § 27.50(d)(10). The Commission’s rules also contain similar rules requiring coordination between
adjacent AWS-1 block operations in the 2110-2155 band and requiring coordination between adjacent AWS-4
blocks in the 2180-2200 MHz band. 47 C.F.R. § 27.50(d)(3), (8).

105

H Block Report and Order, 28 FCC Rcd at 9504-05 ¶ 53.

16800
App. 58

Federal Communications Commission

DA 13-2409

operation of our waiving the additional requirement of section 27.53(h)(2)(ii), the general OOBE
protection levels specified in 27.53(h)(1) and the OOBE measurement procedure specified in 27.53(h)(3)
apply by their own terms to the 2000-2020 MHz band.106 DISH confirms its understanding that the
requirements contained in these rule sections would apply to downlink use of the Lower AWS-4 Band
and commits to operate by these OOBE limits if downlink use of the Lower AWS-4 Band is elected.107
32.
Finally, for the same reasons that we determine above to apply the coordination
requirements of section 27.50(d)(3) to downlink operations in the Lower AWS-4 Band, we condition any
use of the Lower AWS-4 Band for downlink operations on compliance with the protection and
coordination requirements in section 27.1133 for previously licensed BAS and Cable Television Radio
Service (CARS) operations in the 2025-2110 MHz band.108 These requirements include an obligation to
protect BAS and CARS operations and an obligation to coordinate planned stations with those operations
before constructing and operating any base or fixed station. We believe that these coordination and
protection requirements will provide needed protection for BAS and CARS operations against OOBE and
overload interference from potential AWS-4 downlink operations in 2000-2020 MHz. For example,
section 27.53(h) of the Commission’s rules sets a general OOBE limit of 43 + 10 log10(P) dB for both
AWS bands. In setting this protection level for AWS-1 downlink operations, however, the Commission
also determined that it would be insufficient to protect BAS and CARS operations in the 2025-2110 MHz
from harmful interference from AWS-1 downlink operations absent the additional coordination and
protection requirements.109 Thus, just as the Commission found coordination and protection
requirements necessary to avoid harmful interference from AWS-1 operations to BAS and CARS
operations in the 2025-2110 MHz band, we find it appropriate to apply the same requirements here should
DISH use the Lower AWS-4 Band for downlink operations.
33.
We summarize the specific technical requirements that will apply to downlink operations
in the Lower AWS-4 Band below in Section E (Waiver Conditions).110
34.
Waiver of Upper H Block Technical Rules. Sprint argues that the grant of DISH’s waiver
should specify that, if DISH elects to use the 2000-2020 MHz band as downlink, a waiver will be granted
to “all future H Block licensees and . . . Section 27.53(h)(2)(iv) of the rules will not apply.”111 Sprint
states that, because this technical rule in the Upper H Block exists to prevent interference to adjacent band
uplink operations, if the Lower AWS-4 Band were used for downlink, this H Block rule would be
unnecessary.112 In such a scenario, Sprint states, “the normal base station OOBE requirements in
106

47 C.F.R. § 27.53(h)(1), (h)(3). In waiving section 27.53(h)(2)(ii), above, and applying the general OOBE limit
set forth in section 27.53(h)(1) instead, if downlink is elected, we clarify that we are not requiring DISH to apply the
requirements of section 27.53(h)(2)(i) to downlink operations in the Lower AWS-4 Band. See 47 C.F.R. §
27.53(h)(1)-(2)(ii). Section 27.53(h)(2)(i) applies specifically to operations in the 2180-2200 MHz band. 47 C.F.R.
§ 27.53(h)(2)(i).
107

See DISH Petition at 11-12.

108

47 C.F.R. § 27.1133 (“AWS operators must protect previously licensed Broadcast Auxiliary Service (BAS) or
Cable Television Radio Service (CARS) operations in the adjacent 2025-2110 MHz band.”) Arguably, this rule
would apply to downlink use of the Lower AWS-4 Band on its own terms without an additional express
determination here. We need not reach that issue insofar as we affirmatively require the protection and coordination
requirements contained therein to apply to downlink use of the Lower AWS-4 Band.
109

Service Rules for Advanced Wireless Services in the 1.7 GHz and 2.1 GHz Bands, Report and Order, WT
Docket No. 02-353, 18 FCC Rcd 25162, 25211-12 ¶¶ 129-30 (2003).
110

In applying these requirements to downlink use of the Lower AWS-4 Band, we acknowledge that such
requirements will not apply should DISH elect not to use the Lower AWS-4 Band for downlink use.
111

Sprint Reply at 8.

112

Sprint Comments at 8.

16801
App. 59

Federal Communications Commission

DA 13-2409

27.53(h)(1) would then apply automatically, as would be appropriate when downlink base stations operate
on adjacent frequencies.”113 DISH, while not responding to Sprint’s proposal, stated in its Petition that,
should the waiver be granted, it would agree “to accept a less restrictive OOBE limit on H Block
emissions above 2000 MHz” under an operator-to-operator agreement or FCC regulatory action.114
35.
We decline to address in this particular adjudication Sprint’s request that, in the event
DISH elects to use the Lower AWS-4 Band for downlink operations, we waive for all future H Block
licensees the OOBE limit specified in section 27.53(h)(2)(iv) of the Commission’s rules. We do not
believe that the instant DISH waiver proceeding regarding requirements for AWS-4 licensees is the
appropriate proceeding in which to address waivers of the technical rules applicable to future H Block
licensees.
36.
We recognize that, as Sprint asserts, the H Block rule it asks the Commission to waive
imposes a tighter OOBE limit than is typically set forth in the Commission’s rules and was adopted to
address a technical issue arising from the specific interference environment in which uplink operations in
the Lower AWS-4 Band would need to coexist with downlink operations in the adjacent Upper H Block.
Specifically, in the H Block Report and Order, the Commission found that “a stricter OOBE limit is
warranted because the Upper H Block (downlink) is adjacent to the AWS-4 / 2 GHz MSS uplink band.”115
Should DISH elect to use the Lower AWS-4 Band for downlink purposes, the interference environment
effectively would consist of one continuous downlink band from 1930-2020 MHz, comprised of PCS, H
Block, and AWS-4 spectrum. The rules and requirements in place would then require OOBE protections
of all adjacent blocks within this spectrum range, including (pursuant to this waiver order) from the
Lower AWS-4 Band into the Upper H Block, at a level of 43 + 10 log10(P) dB. The only exception in the
Commission’s rules to this consistent OOBE limit between adjacent blocks would be the section
27.53(h)(2)(iv) requirement that operations in the Upper H Block attenuate OOBE at 70 + 10 log10(P) dB
into 2005-2020 MHz. Such a discrepancy pertaining solely to the Upper H Block rules would appear to
be unnecessary if downlink is elected in the adjacent Lower AWS-4 Band. Indeed, DISH has recognized
that the OOBE limits for Upper H Block emissions into the Lower AWS-4 Band could be relaxed if it is
granted the flexibility, and so elects, to use the Lower AWS-4 Band for downlink operations.116 Thus,
absent the potential for harmful interference to adjacent Lower AWS-4 Band operations, it would appear
appropriate to examine whether to relax the OOBE limits on the Upper H Block.
37.
We find, however, that it is premature to address this request to waive the H Block
OOBE requirements in this order, given that the H Block auction has not yet occurred and that it is not yet
clear if the AWS-4 band will be used for uplink or downlink. To the extent that Sprint, or any other party,
desires a waiver or change of any of the H Block rules in light of this order, or DISH’s subsequent actions
pursuant to the order, it may file an appropriate request.
C.

Election Period

38.
In seeking flexibility to determine whether to use the AWS-4 2000-2020 MHz band for
uplink or downlink operations, DISH commits that, as soon as commercially practicable but no later than
30 months after grant of its petition, it will file an election stating which option it chooses.117 DISH

113

Id. at 8.

114

DISH Petition at 14.

115

H Block Report and Order, 28 FCC Rcd at 9513 ¶ 73 (adopting an OOBE limit of 70 + 10 log10(P) dB into 20052020 MHz); see generally H Block Report and Order, 28 FCC Rcd at 9503-9516 ¶¶ 49-80; Sprint Comments at 8.

116

DISH Petition at 14.

117

Id. at 1-2.

16802
App. 60

Federal Communications Commission

DA 13-2409

maintains that it needs this flexibility in order to “obtain[] a degree of certainty as to the availability of
new uplink spectrum, and the extent to which such spectrum would be suitable for pairing.”118
39.
We condition DISH’s waiver on making an election in accordance with this time
limitation. DISH states that it needs this time to fully evaluate its options for putting the spectrum to its
best use. No party substantively responded to this rationale, and the only party to comment on this
election time frame, NTCH, neither comments on the utility of the potential use of the Lower AWS-4
Band as downlink, nor addresses DISH’s argument that it needs this time to ensure its ability to find new
uplink spectrum for pairing with 2000-2020 MHz downlink spectrum.119 Rather, NTCH argues that an
election period extending beyond the upcoming H-Block auction120 would unfairly advantage DISH in
that auction, because DISH’s ”unilateral control [of] the technical configuration of the adjacent [AWS-4]
band” would create uncertainty about the value of the H Block during the auction.121 We are unpersuaded
by NTCH’s argument. Rather, DISH correctly observes that neither of its election options would
decrease the value of the H Block;122 the only possible change would be an increase resulting from the
improved usability described above.123 Moreover, regardless of which election DISH ultimately makes,
the interference environment is known now and H Block licensees will receive appropriate interference
protections from AWS-4 licensees. In addition, all H Block bidders should be aware of DISH’s request
for the waiver granted in this order,124 and should be able to take the terms of the waiver into account in
their bidding strategies. Thus, we are not persuaded that the length of the election period will create
uncertainty with regard to the interference protection environment or give DISH any advantage in that
regard.
40.
In granting DISH as long as is commercially practicable, up to 30 months, to make its
uplink or downlink election, we clarify that the election is a one-time, irrevocable event, and that it must
be filed in the manner described below.125 Once DISH determines how it will utilize the band, nearby
licensees must have the certainty of knowing how the band will be utilized, for uplink operations or for
downlink operations. Thus, the election must occur only once. Further, the election must, as DISH
states, “apply uniformly to all AWS-4 licenses in the nation.”126 Accordingly, DISH’s waiver is
conditioned on its filing an election within 30 months of the date of the release of this order, as DISH has
proposed.
118

DISH Reply at 4-5 n.14.

119

See DISH Petition at 4; DISH Reply at 4 n.14.

120

The H-Block auction is scheduled to begin on January 22, 2014. Auction of H Block Licenses in the 1915-1920
MHz and 1995-2000 MHz Bands Rescheduled for January 22, 2014, AU Docket No. 13-178, Public Notice, DA 132033 (Oct. 21, 2013).
121

NTCH Comments at 4-5.

122

That is, neither option would subject the Upper H Block to more stringent technical requirements than now apply,
and neither would adversely affect the interests of potential bidders in the H-Block auction.
123

See DISH Reply at 4; see also NTCH Comments at 4.

124

See Auction 96 Procedures PN Recon Order at ¶ 19 (“Auction 96 applicants can assess the impact of existing
rules and the possible impact, if any, of the technical changes proposed by DISH. Prior to an auction, we
consistently advise bidders that they are solely responsible for conducting due diligence . . . upon a license being
offered at auction, including pending matters. Thus, we urge bidders to consider any pending challenges or waiver
requests in determining whether and how much to bid on licenses at auction.”) (internal citation omitted); see also
Auction 96 Procedures PN, 28 FCC Rcd at 13033-34 ¶¶ 41-45; Auction 96 Comment PN, 28 FCC Rcd at 10016-17
¶¶ 11-14 (rel. July 16, 2013).
125

See infra Section III.E. (Waiver Conditions).

126

DISH Reply at 5.

16803
App. 61

Federal Communications Commission
D.

DA 13-2409

One-Year Waiver of the Final Build-Out Milestone

41.
Background. DISH also seeks a one-year extension or waiver of the final construction
milestone for its AWS-4 licenses.127 Section 27.14(q) states that AWS-4 licensees must provide coverage
and service to at least (1) 40 percent of their aggregate license areas’ population within four years (interim
build-out requirement),128 and (2) 70 percent of the population in each of their license areas within seven
years (final build-out requirement).129 DISH seeks only a one-year waiver of the final build-out
requirement deadline, which would allow it eight years rather than seven years to meet the final build-out
requirement.130
42.
DISH justifies its request by stating that electing to use the Lower AWS-4 Band for
downlink operations would engender new and additional work for network design and the development of
base stations for use in the band.131 DISH observes that the Commission has previously extended
construction milestones due to band reconfigurations and technical changes.132 It argues that the brief
extension it seeks would promote the public interest by spurring broadband deployment, making more
efficient use of available spectrum, and encouraging innovation.133 DISH also notes that it does not seek
an extension of the applicable interim build-out milestone that applies to the 2000-2020 MHz band.134
43.
Discussion. Under the waiver standard articulated above, we grant the one-year waiver
DISH requests. In adopting the AWS-4 performance requirements, the Commission observed it
“establishes performance requirements to promote the productive use of spectrum, to encourage licensees
to provide service to customers expeditiously, and to promote the provision of innovative services
throughout the license area(s), including in rural areas.”135 Other than NTCH’s objection, which is
conclusory and merely ancillary to its opposition to the waiver of the uplink provision described below,
no party opposed a one-year waiver of the final build-out deadline.136 Under the unique circumstances of
this case, because DISH must make a determination about whether to use the Lower AWS-4 Band for
127

DISH Petition at 16-19.

128

See 47 C.F.R. § 27.14(q)(1) (“An AWS-4 licensee shall provide terrestrial signal coverage and offer terrestrial
service within four (4) years from the date of the license to at least forty (40) percent of the total population in the
aggregate service areas that it has licensed in the 2000-2020 MHz and 2180-2200 MHz bands (“AWS-4 Interim
Build out Requirement.”)).
129

See 47 C.F.R. § 27.14(q)(2) (“An AWS-4 licensee shall provide terrestrial signal coverage and offer terrestrial
service within seven (7) years from the date of the license to at least to at least seventy (70) percent of the population
in each of its license areas in the 2000-2020 MHz and 2180-2200 MHz bands (“AWS-4 Final Build out
Requirement.”)).
130

DISH Petition at 5.

131

Id. at 17 (“The potential conversion of the 2000-2020 MHz spectrum to downlink use presents a number of
technical challenges. Among other things, DISH will need to initiate work for a new standard from the 3rd
Generation Partnership Project (“3GPP”) and will need to restart work to design devices and base stations, and make
substantial changes to its network planning.”).
132

DISH Petition at 18 (citing Improving Public Safety Communications in the 800 MHz Band, WT Docket No. 0255, ET Docket No. 00-258, ET Docket No. 95-18, Report and Order, Fifth Report and Order, Fourth Memorandum
Opinion and Order, and Order, 19 FCC Red. 14969 ¶ 205 (2004); Amendment of Part 27 of the Commission's
Rules to Govern the Operation of Wireless Communications Services in the 2.3 GHz Band, WT Docket No. 07-293,
IB Docket No. 95-91, Order on Reconsideration, 27 FCC Red. 13651, 13700 ¶ 121 (2012)).
133

DISH Petition at 19.

134

Id. at 5.

135

AWS-4 Report and Order, 27 FCC Rcd at 16173-74 ¶ 187.

136

NTCH Comments at 1, 5.

16804
App. 62

Federal Communications Commission

DA 13-2409

uplink or downlink operations, allowing it an extra year to complete its final build-out requirement is a
reasonable accommodation to ensure that it has sufficient time to assess how this band might be put to
more efficient use, without unduly delaying completion of the required full build-out due to the limited,
one-year nature of the extension. DISH does not seek a waiver of the interim build-out deadline.137 In the
AWS-4 proceeding, DISH committed to “aggressively build-out a broadband network” using AWS-4
spectrum and the Commission stated that it “expect[ed] this commitment to be met.”138 Furthermore,
given the public interest benefits we have found in waiving the technical rules for DISH, we find that
those same public interest benefits would support the limited waiver of the final build-out deadline that
we grant today. We observe that DISH’s circumstances are readily distinguishable from cases where
applicants have had an extended period of time to build out and made a choice not to build facilities.139
E.

Waiver Conditions

44.
If DISH elects to use the Lower AWS-4 Band for terrestrial downlink operations, such
use will be subject to any rules that are generally applicable to AWS downlink operations,140 except to the
extent they are expressly waived by this order,141 as well as all applicable license conditions and the
following express conditions.
45.
Election period. We require DISH to submit or cause to be submitted as soon as
commercially practicable but no later than 30 months from the release date of this Memorandum Opinion
and Order a filing(s) in WT Docket 13-225 and in the Universal Licensing System (ULS) for all AWS-4
licenses, stating unequivocally its election—applicable to all AWS-4 licenses—of either uplink or
downlink operations (but not both) at 2000-2020 MHz. Failure to meet this condition will terminate the
waivers granted herein, without the need for further agency action. Notwithstanding that the election will
not be made for up to 30 months, the election when made by DISH shall be binding on all AWS-4
licensees who are AWS-4 licensees on the release date of this Memorandum Opinion and Order or at any
time thereafter.142
46.
H Block Auction Commitment. Given our public interest analysis of DISH’s bidding
commitment in the H Block auction, we grant this waiver on the express condition that DISH fulfill its
commitment to bid “at least a net clearing price” equal to the aggregate reserve price of $1.564 billion in
the H Block auction. Failure by DISH to meet this commitment will terminate the waivers granted
herein, without the need for further agency action.143

137

DISH Petition at 17.

138

AWS-4 Report and Order, 27 FCC Rcd at 16176 ¶ 194 (quoting DISH AWS-4 Comments at 18).

139

See, e.g., FiberTower Spectrum Holdings, LLC, Memorandum Opinion and Order, 28 FCC Rcd 6822 (2013),
recon. pending.

140

See supra ¶¶ 26-27.

141

See supra ¶¶ 24-25.

142

See supra ¶¶ 38-40.

143

See supra ¶¶ 20, 23.

16805
App. 63

Federal Communications Commission

DA 13-2409

47.
Downlink Operations in 2000-2020 MHz. If DISH does elect to use 2000-2020 MHz for
downlink operations, in place of the rules waived above, the following requirements (based on our
technical analysis detailed above), shall apply:144
Technical Issue

Requirement
(1) The EIRP limits for rural and non-rural areas set forth in rule sections
27.50(d)(1)-(2); and
(2) Coordination with 1995-2000 MHz licensees in the same manner that rule
section 27.50(d)(10) requires 1995-2000 MHz licensees to coordinate with
1990-1995 MHz licensees.
The OOBE limit set forth in rule section 27.53(h)(1), with the measurement
procedure set forth in rule 27.53(h)(3).

Power Limits

OOBE Limits
Power Strength Limits
(Co-Channel
Interference)
Coordination with and
protection of certain
operations in the 20252110 MHz band
F.

The field strength limits set forth in rule section 27.55(a)(1).
The coordination and protection requirements set forth in rule sections
27.50(d)(3) and 27.1133.

Other Record Matters
1.

Reimbursement of BAS Clearing Costs

48.
Background. Sprint requests that the Commission condition its grant of the DISH
Petition upon “DISH’s timely and complete reimbursement to Sprint of the BAS clearing expenses for
any H Block licenses that DISH may be granted through the H Block auction.”145 DISH opposes such a
condition because the Commission has already imposed a reimbursement obligation on all winning
bidders in the H Block auction.146 DISH argues that the Commission should not apply a different
enforcement regime to one prospective licensee (DISH).147 It also states unequivocally that it does not
object to Sprint’s being reimbursed under the terms outlined in the H Block Report and Order.148 Sprint
responds, stating that DISH’s past challenges to the Commission’s cost-sharing rules show that the
Commission should attach conditions to its grant of the waiver to assure that DISH will complete its
obligations in a timely and complete manner.149
49.
Discussion. We decline to impose a specific cost-sharing reimbursement condition on
our grant of DISH’s waiver request. When granting relief to a licensee, the Commission generally
declines to impose conditions that require that licensee to comply with rules and policies that it is already
obligated to follow.150 As DISH explains, in the instant case a fully enforceable cost-sharing rule already
144

See supra ¶¶ 26-33.

145

Sprint Comments at 5-6.

146

DISH Reply at 3-4.

147

Id. at 4.

148

Id.

149

Sprint Reply at 7.

150

See, e.g., Applications of Softbank Corp., Starburst II, Inc., Sprint Nextel Corporation, and Clearwire
Corporation For Consent to Transfer Control of Licenses and Authorizations, 28 FCC Rcd 9642, 9674 ¶ 81 (2013)
(“consistent with Commission precedent, we conclude that such conditions [which would require the companies to
(continued….)

16806
App. 64

Federal Communications Commission

DA 13-2409

applies to any and all H Block winning bidders.151 Thus, to the extent that DISH (directly or indirectly) is
a winning bidder at the H Block auction, it (as well as any other winning bidders) will be required by the
terms of the H Block Report and Order and the rules promulgated thereunder to make the relevant costsharing payments.152 We are not persuaded by Sprint’s argument that DISH’s past challenges to the
application of Commission cost-sharing rules and policies show that we must attach extra conditions here.
Rather, we expect all H Block winning bidders to follow the applicable Commission bidding and other
requirements. We believe that, as explained in the H Block Report and Order, the Commission’s existing
enforcement mechanisms are adequate tools to address any issues regarding a failure to make required
cost-sharing payments.153
2.

NTCH Objections

50.
Background. NTCH raises a number of objections to our granting the DISH Petition.
First, NTCH observes that it has a pending reconsideration petition before the Commission and that,
while the issues raised in that petition “remain[] up in the air, the Commission cannot usefully evaluate
the instant [DISH] waiver request.”154 NTCH requests that the Commission resolve its reconsideration
petition before resolving the DISH Petition.155 Second, NTCH asserts that the Commission is moving too
“hastily” and implies that the comment cycle was insufficient, particularly as the proceeding raises
interference issues that can normally take months or years to resolve.156 Third, NTCH claims that there is
“the appearance of impropriety in the dealings between DISH and the Commission.”157 Fourth, NTCH
asserts that the DISH Petition should be treated as a petition for rulemaking, not as a waiver request.158
DISH responds that NTCH fails to address the public interest benefits of DISH’s petition,159 and that past
practice and precedent have allowed the Commission discretion in addressing similar (or even broader)
waivers than DISH’s requested relief.160
(Continued from previous page)
continue to comply with existing FCC requirements] are unnecessary, as they only serve to require entities to
comply with legal obligations that are already in effect and fully enforceable”); Application of Puerto Rico
Telephone Authority and GTE Holdings, LLC, 14 FCC Rcd 3122, 3134 ¶ 28 (1999) (stating that the requested
conditions are not necessary because they “would simply require PRTC to comply with its existing legal
obligations”).
151

See 47 C.F.R. §§ 27.1021 (cost-sharing reimbursement obligation of licenses at 1915-1920 MHz), 27.1031 (costsharing reimbursement obligation of licensees at 1995-2000 MHz).

152

See generally H Block Report and Order, 28 FCC Rcd at 9543-9551 ¶¶ 157-173.

153

See id. at 9550 ¶ 172 (citing Improving Public Safety Communications in the 800 MHz Band, 25 FCC Rcd
13874, 13904 ¶ 73 (2010)).

154

NTCH Comments at 1.

155

Id. NTCH has actually filed two reconsideration petitions—one asking the Commission to reconsider the AWS-4
Report and Order and the other asking it to reconsider the AWS-4 Order of Modification—but it fails to specify
which petition it is referring to. See Petition for Reconsideration, WT Docket Nos. 12-70, 04-356, ET Docket No.
10-142 (filed March 18, 2013) (“Petition for Reconsideration of the AWS-4 Order of Modification”), Petition for
Reconsideration, WT Docket Nos. 12-70, 04-356, ET Docket No. 10-142 (March 7, 2012) (“Petition for
Reconsideration of the AWS-4 Report and Order”); see also AWS-4 Order of Modification, 28 FCC Rcd 1276.

156

NCTH Comments at 2.

157

Id. at 2-4.

158

Id. at 4. NTCH also asserts that the elective element of the DISH waiver, if granted, would provide DISH with
an advantage over other H Block bidder. We address this issue above. See supra ¶ 39.
159

DISH Reply at 4-6.

160

Id. at 6.

16807
App. 65

Federal Communications Commission

DA 13-2409

51.
Discussion. We are not persuaded by NTCH’s arguments that we should delay or deny
DISH’s request. We respond to each of NTCH’s arguments in turn. First, we disagree with NTCH’s
assertion that we should defer our consideration of DISH’s request. Rather, we conclude that there is
merit to waiving the applicable technical rules for the Lower AWS-4 Band at this time.161 Specifically,
waiving the rule now is consistent with our overall spectrum management obligation and will provide
DISH, the licensee at 2000-2020 MHz, with the ability to develop its plan to utilize the AWS-4 spectrum
most efficiently. Delaying action on the waiver would not advance the Commission’s policy goal of
promoting deployment of broadband service in this band. Thus, by granting DISH Petition at this time,
we maximize the opportunity for planning and flexibility that DISH seeks through its request, and also do
so in advance of the January 2014 H Block auction so as to permit DISH to “develop [its] business
plans.”162 The NTCH reconsideration petitions remain pending and will be resolved in separate
proceedings.
Second, we disagree with NTCH that the comment cycle was insufficient. In this case,
52.
DISH filed its waiver request on September 9, 2013; the Commission released a public notice seeking
comment on the petition on September 13, 2013; the public notice specified that comments were due on
September 30, 2013, and that reply comments would be due on October 10, 2013. Following the
intervening closure of the Commission, on October 17, 2013, the Commission extended the reply
comment deadline until October 28, 2013.163 There is no set pleading cycle for waiver requests specified
in the Communications Act or the Commission’s rules. NTCH, which filed comments on the original
deadline, does not make any demonstration that it has been denied a meaningful opportunity to be heard
on DISH’s petition. In this case, we have thoroughly considered the record in support of and in
opposition to DISH’s request, and we conclude that the time period allowed did not preclude interested
parties from obtaining a meaningful opportunity to be heard.
53.
Third, we reject NTCH’s argument about “the appearance of impropriety” in addressing
the DISH Petition. The terms and conditions requested by DISH in connection with its waiver are
contained in the DISH Petition, as well as in its filing dated September 10, 2013, in the lower 700 MHz
interoperability proceeding (WT Docket No. 12-69). We are addressing the DISH Petition based on the
public record before us and our analysis thereof, which is explained throughout the course of this order.
All interested parties, including NTCH, have had an opportunity to review these terms and commitments
and to comment on whether the Commission should grant the DISH Petition on these terms, as well as to
suggest additional terms or conditions, as did Sprint. We have addressed DISH’s proposal based on the
161

To the extent that NTCH may be arguing that we are precluded from addressing the DISH Petition because of
either of its pending petitions for reconsideration, such a claim would be without merit. The AWS-4 rules are
legally in effect and DISH, as the present AWS-4 licensees, is bound by those rules. The fact that a reconsideration
of those rules is pending in the AWS-4 docket does not stay or postpone the legal effect of those rules. 47 U.S.C. §
405(a) (“No [petition for reconsideration before the Commission] shall excuse any person from complying with or
obeying any order, decision, report, or action of the Commission, or operate in any manner to stay or postpone the
enforcement thereof, without the special order of the Commission.”); 47 C.F.R. § 1.429(k) (“the filing of a petition
for reconsideration shall not excuse any person from complying with any rule or operate in any manner to stay or
postpone its enforcement”); see also 47 U.S.C. § 154(j); FCC v. Schreiber, 381 U.S. 279, 289 (1965) (Congress has
“delegat[ed] to the Commission power to resolve subordinate questions of procedure” and “has left largely to [the
Commission’s] judgment the determination of the manner of conducting its business which would most fairly and
reasonably accommodate the proper dispatch of its business and the ends of justice.”) (internal quotation marks
omitted); FCC v. Pottsville Broadcasting Co., 309 U.S. 134 (1940) (applying the principle from Schreiber); City of
Angels Broadcasting, Inc. v. FCC, 745 F.2d 656, 664 (D.C. Cir. 1984) (noting the Commission’s “wide discretion in
fashioning its own procedures” under Section 4(j) of the Act as recognized in Schreiber). These statutory policies
also apply to petitions for reconsideration of non-rulemaking actions. See 47 C.F.R. § 1.106(n).
162

See 47 U.S.C. § 309(j)(3)(E)(ii).

163

See supra ¶ 9.

16808
App. 66

Federal Communications Commission

DA 13-2409

public interest benefits set forth in its filings and the comments received and our independent evaluation
of the interference questions and public interest considerations discussed above. Thus, we reject NTCH’s
assertions that DISH’s proposal and our consideration of it have not been transparent to the public.
Further, we do not find it inappropriate to consider DISH’s commitment to ensure that the H Block
auction satisfies the aggregate reserve price, because we traditionally evaluate requests for waiver of the
Commission’s rules using a public interest calculus.164 As discussed above, we have set a reserve price
pursuant to the policies in the statute after considering the record. Regardless of NTCH’s wholly
speculative claims about what parties may or may not participate in the H Block auction, the fact that
DISH has undertaken to ensure that the auction successfully meets that reserve price (which also furthers
an added statutory goal of providing funding for FirstNet) is an additional public interest benefit to be
considered in connection with evaluation of its waiver request.
Fourth, we disagree with NTCH that DISH’s request must be addressed by rulemaking
54.
rather than adjudication. Indeed, we have granted similar waivers of the Commission’s technical rules
when the waiver allowed licensees to operate in a manner not contemplated by the rules.165 As the courts
have made clear, the Commission’s “discretion to proceed in difficult areas through general rules is
intimately linked to the existence of a safety valve procedure for consideration of an application for
exemption based on special circumstances.”166 To the extent NTCH is suggesting that such an
adjudicatory approach to technical rules based on individual facts and circumstances is somehow
inapplicable to services in which there is only one (or a small number) of licensees, it is inconsistent with
this basic corollary to the Commission’s rulemaking authority. As noted above, we have determined that
the unique situation we have described warrants a deviation from one aspect of those rules. That
determination is well within the scope of our waiver authority under sections 1.3 and 1.925 of the
Commission’s rules.167 NTCH has also had a full and fair opportunity to comment on DISH’s proposal
and makes no showing of prejudice from our decision to address that proposal based on the particular
facts and circumstances of DISH’s AWS-4 and 2 GHz MSS license holdings in accordance with our well
established rules governing waivers, and after notice and opportunity to comment.
IV.

ORDERING CLAUSES

55.
ACCORDINGLY, IT IS ORDERED, pursuant to Section 4(i) of the Communications
Act of 1934, as amended, 47 U.S.C. § 154(i), and Sections 1.3 and 1.925 of the Commission’s Rules, 47
C.F.R. §§ 1.3, 1.925, that the Petition for Waiver of Sections 27.5(j) and 27.53(h)(2)(ii) and Request for
Extension of Time filed by DISH Network Corporation on September 9, 2013 IS GRANTED subject to
the conditions indicated herein.
56.
IT IS FURTHER ORDERED that AWS-4 licenses of Gamma Acquisitions L.L.C., call
signs T060430001 through T060430176, and the AWS-4 licenses of New DBSD Satellite Services G.P.,
call signs TO70272001 through T070272176, SHALL BE REFERRED to the Wireless
164

See NTCH Comments at 3.

165

See generally RC Technologies, Memorandum Opinion and Order, 25 FCC Rcd 124 (WTB 2010) (granting a
waiver of certain technical rules that would otherwise prevent the entity seeking a waiver from using lower and
upper segments of a band, instead of the just the middle segment of the band); see also State of Alaska,
Memorandum Opinion and Order, 18 FCC Rcd 16315, 16323-24 (WTB 2003) (waiving certain technical rules
where the purpose of the rule was to avoid interference and granting the waiver would not increase the potential for
harmful interference to other licensees).
166

WAIT Radio v. FCC, 418 F.2d 1153, 1157 (D.C. Cir. 1969) (citing, e.g., United States v. Storer Broadcasting
Co., 351 U.S. 192, 204-05 (1956)).

167

This is also not a case, like Tribune Co. v. FCC, 133 F.3d 61 (D.C. Cir. 1998), where the licensee sought to
challenge the validity of the rule itself, or a well-established waiver policy.

16809
App. 67

Federal Communications Commission

DA 13-2409

Telecommunications Bureau, Broadband Division, for processing consistent with this Memorandum
Opinion and Order.
57.
IT IS FURTHER ORDERED that this Memorandum Opinion and Order, or a summary
thereof, SHALL BE PUBLISHED in the Federal Register.
58.
IT IS FURTHER ORDERED that this Memorandum Opinion and Order SHALL BE
EFFECTIVE upon release.
59.
This action is taken under delegated authority pursuant to Sections 0.131 and 0.331 of the
Commission’s rules, 47 C.F.R. §§ 0.131, 0.331.
FEDERAL COMMUNICATIONS COMMISSION

Roger C. Sherman
Acting Chief, Wireless Telecommunications Bureau

16810
App. 68

Federal Communications Commission
APPENDIX
List of Comments and Reply Comments
Comments
AT&T Inc.
NTCH, Inc.
Sprint Corporation

Reply Comments
DISH Network Corporation
Sprint Corporation

16811
App. 69

DA 13-2409

USCA Case #18-1241

Document #1840189

Filed: 04/28/2020

Page 1 of 1

United States Court of Appeals
FOR THE DISTRICT OF COLUMBIA CIRCUIT

____________

No. 18-1241

September Term, 2019
FCC-18-123
Filed On: April 28, 2020

NTCH, Inc.,
Appellant
v.
Federal Communications Commission,
Appellee
-----------------------------DISH Network Corporation,
Intervenor
-----------------------------Consolidated with 18-1242

BEFORE:

Srinivasan, Chief Judge; Henderson, Rogers, Tatel, Garland,
Griffith, Millett, Pillard, Wilkins, Katsas, and Rao, Circuit Judges
ORDER

Upon consideration of petitioner’s petition for rehearing en banc in No. 18-1242,
and the absence of a request by any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

App. 70

/s/
Michael C. McGrail
Deputy Clerk

Before
the
Federal Communications Commission

In re
Notice and Filing Requirements
for Auction 96
To: The Commission

Docket AU Docket 13-178

NTCH, Inc.'s Application for Review

NTCH, Inc. ("NTCH") hereby applies to the full Commission pursuant to Section 1.115
of the rules for review of the Wireless Telecommunications Bureau's November 27, 2013
Memorandum Opinion and Order ("Recon Denial Order") denying NTCH's petition for
reconsideration of the Bureau's Auction 96 Procedures Order (DA 13-1885). NTCH's petition
was founded largely on the Bureau's sudden and unprecedented adoption of an extremely high
reserve price for the H Block auction, on the Bureau's failure to acknowledge or discuss the
backroom deal that drove the Commission's adoption of the particular reserve price proposed by
DISH, and the potential skewing of the auction in favor of DISH by the Commission's grant of a
waiver to DISH which would give DISH the unilateral right to either increase or decrease the
value of the H Block in which it is a bidder.

A. Questions Presented for Review
1. Did the Commission's entry into an agreement with DISH Network involving a
commitment to a minimum bid by DISH in Auction 96 in exchange for certain other

1

{00605332-1 }

App. 71

extraordinary benefits to be granted to DISH in connection with its other licenses constitute
changed circumstances warranting reconsideration by the Bureau?
2. Was the Bureau's $.50 per MHz/pop reserve price supported by either facts or
precedent?
3. Has the Commission's deal with DISH been made a part of the record of Auction 96?
4. Does the Commission's grant of an uplink/downlink waiver to DISH in connection
with its AWS-4 license skew Auction 96 by giving DISH a unique advantage over all other
bidders?

B. Factors Warranting Commission Consideration
1. The Bureau's action constitutes a prejudicial procedural error.
2. The Bureau's action in adopting a reserve price based on a deal with a potential auction
bidder is unprecedented.
3. The reserve price set in the auction is contrary to precedent and unsupported by the
facts of record.

C. Argument
1. Reconsideration was justified by new developments. The Bureau's Recon Denial
Order appears to be based on part on a finding that NTCH's petition for reconsideration was not
based on facts that were known prior to the last opportunity to comment. Let us be very clear.
The period for submitting comments on the Bureau's reserve price proposal for Auction 96
closed on August 5, 2013. On September 9, DISH submitted a 2-page ex parte comment
proposing out of the blue a reserve price seven times higher than the minimum bids which the

2

{00605332-1 }

App. 72

Commission had proposed. DISH did not mention any connection between its new reserve price
proposal and the resolution of interoperability issues which had been agreed to by the
Commission. Late on September 10, Acting Chairwoman Clyburn released a statement
announcing a "voluntary industry solution" to 700 MHz interoperability involving DISH
Network and a few other industry stakeholders who "worked collaboratively with FCC staff to
hammer out a solution that benefits all consumers." The terms of the collaborative solution were
not revealed, nor have they ever been revealed by the Commission.
On September 9, DISH apparently also filed a request for a waiver of the rules in
connection with its AWS-4 license and for extensions of time to achieve certain build-out
obligations with respect to that license and its 700 MHz license. The Petition was assigned its
own docket (13-225), and the public was given eleven days to respond to the petition.
Strangely, the copy of the DISH petition in Docket 13-225, though dated September 9, 2013, is
stamped as "filed and accepted" on September 25. In this document for the first time is revealed
DISH's "acknowledgement" that the Commission's grant of the various benefits it requested in
the petition is to be conditioned on its bidding the reserve price set in Auction 96, not to exceed
50 cents a MHz/pop. While there were press speculations about the terms of the interoperability
"deal" reached in early September, no one has formally acknowledged that a deal exists, and the
September 9/25 DISH filing was the first notice in any Docket that there was a quid pro quo
between the proposed DISH bid in Auction 96 and the grant of its waiver/extension request. The
Commission issued a Public Notice on September 13 alerting the public to the DISH waiver
petition and seeking comment. September 13 was the same date the Bureau adopted the
Auction 96 Procedures Order.

3

{00605332-1 }

App. 73

It is incontrovertible that there were dramatically new facts and circumstances affecting
the setting of a reserve price in Auction 96 which could not have been known by the public prior
to September 13 -- the day the Bureau issued the Order under review here. And the reserve
price proposal itself was only made a few days before the Commission adopted the Order -hardly time for anyone to become aware of the filing, much less make a responsive comment.
For the Commission to ignore these circumstances only exacerbates the appearance of a secret
arrangement. NTCH's petition for reconsideration timely and very properly raised and
questioned the propriety of these new circumstances.

2. The reserve price is unsupported by facts or precedent. The Recon Denial Order states
that the Bureau adopted DISH's proposed reserve price and the related methodology "after
careful consideration." Recon Denial Order at Para.16. This careful consideration occurred
over a matter of a few days with no effective opportunity for any response from the public. The
Bureau's adoption of the $.50/MHz/pop reserve price is notable in three respects. First, there is
no support in the record whatsoever for the figure adopted. DISH's brief submission merely
indicates that the value of the H Block is estimated to be "at least $0.50 per ... MHz-pop." DISH
then goes on to cite a 7 year old value for AWS-1 spectrum, and several more recent valuations
of AWS spectrum ranging from 61 cents to $1.00 per MHz-pop. None of the cited sources
support a 50 cent reserve price. If anything they appear to justify a higher reserve price north of
60 cents if secondary market AWS valuations are to be used as the basis for a reserve price. Yet
the Bureau adopted the 50 cent figure without any explanation for its reasoning.
Second, the Bureau pointed to a couple of earlier auctions in Footnote 38 of the Recon
Denial Order to justify a reserve price for PCS spectrum which is seven times the minimum bid

4

{00605332-1 }

App. 74

amount. None of the examples cited were PCS auctions -- in fact, in no previous auction going
as far back as 1999 has the Commission ever set a reserve price for a PCS auction. Rather, the
FCC stated in one such auction that “effectively the minimum opening bids operate as reserve
prices” (Auction of Broadband PCS Spectrum Scheduled for May 16, 2007, Notice and Filing
Requirements, Minimum Opening Bids, Upfront Payments and Other procedures for Auction
No. 71, DA 07-30, Public Notice, ¶146 (2007)). And even in the AWS auctions cited by the
Bureau, the reserve prices adopted were only two or four times the minimum bids. The setting
of a PCS reserve price at seven times the minimum bid value is literally unprecedented.
Finally, as will be discussed below, the Bureau's discussion of how and why it arrived it
the 50 cent reserve price ignores both DISH's commitment to bid that price and the conditional
nature of that commitment. Given the extraordinarily high reserve price and the Commission's
stated desire to maximize its take to support FirstNet, it was disingenuous for the Commission to
act as though the grant of DISH's waiver was an open question. Unless the DISH waiver petition
was granted -- as in fact it was duly granted on December 20 -- the high reserve price might well
have caused Auction 96 to fail entirely, especially given the absence of major players in the
auction. Yet this connection was nowhere acknowledged in Docket 13-178.

3. The understanding between DISH and the other parties to the "voluntary agreement"
among stakeholders should be made public. As we have seen, there is a strong appearance that
the Commission agreed informally to grant DISH a waiver of the rule mandating uplink use of
the 2000-2020 MHZ AWS-4 band, along with extensions of time to meet certain build-out
requirements, in exchange for concessions from DISH on potential interference to its 700 MHz

5

{00605332-1 }

App. 75

holdings and its commitment to bid at least 50 cents per MHz/pop in the H Block auction. The
latter commitment amounted in some ways to a negotiated sale of the H Block rather than a free
and open auction in which the bids of auction participants set the price for the auctioned licenses.
NTCH itself chose not to enter the auction because the agreed minimum bid by DISH equal to
the reserve price seemed likely to far exceed the price at which at least some the licenses could
otherwise have been bought. At the same time, the flexibility granted to DISH to change the
band adjacent to the H Block from uplink to downlink at its sole option gave it a unique
advantage in the auction which was undisclosed to other bidders at the time the auction
procedures were adopted, applications were filed, and upfront funds were posted. It was
incumbent upon the Commission to let other auction participants know that it was planning to
give one bidder a major advantage in establishing the value of the licenses. Not to reveal these
circumstances fundamentally corrupted the integrity of the auction.
It should be noted in this regard that the Commission scrupulously polices collusion
between bidders in the auction, even taking steps to preclude signaling of bidding intentions by
the way bids are entered. This is entirely appropriate because it is essential that auction
participants have the assurance that the bidding has not been stacked or rigged against them.
Yet that is precisely what the Commission's agreement with DISH does -- it guarantees that the
prices for licenses in the auction will not be based on values set by the auction process itself but
rather by the Commission's a priori deal. Only here the collusion is not between two bidders but
rather between one bidder and the auctioneer.

4. The grant of DISH's waiver skews the auction. All parties, including DISH itself,
agree that the status of the AWS-4 2000-2020 MHz band as uplink or downlink dramatically

6

{00605332-1 }

App. 76

affects the value of the adjacent H Block. Indeed, the Commission went to great lengths in
adopting the service rules for the AWS-4 band to ensure that it securely protected the adjacent H
Block from interference. That is why the adjacent band was made an uplink band. The
uplink/downlink status will certainly affect the utility of the H Block. By giving DISH the
unilateral power after the auction is over to decide whether the adjacent band is used for uplink
or downlink, the Commission has given DISH a huge advantage in knowing how much to bid. It
is almost as though the Commission told DISH it could decide after the auction was over
whether the H Block would be 10 MHz or 7.5 MHz, but only DISH would know which one it
was going to be. The auction cannot possibly be fair under these circumstances.
The Bureau's only response to this major flaw in the integrity of the auction is to remind
bidders that they must diligently take into account all contingencies in making their bids, with
one contingency being that one of the bidders could render the licenses acquired less valuable by
its own fiat. For bidders to conduct any kind of reasonable due diligence, however, they must all
have access to the same information about the rules governing the auction, the service
requirements, and the potential for interference from adjacent bands. By giving DISH the
exclusive right to adjust that last variable up or down, the Commission has effectively
handicapped all other bidders at the starting gate.

D. Conclusion
The procedures adopted by the Bureau for Auction 96 make it a virtual certainty that
DISH will win all or the great majority of the licenses involved. The auction is so strongly
skewed in favor of DISH as a result of an undisclosed "collaboration" between DISH and the
Commission that no other bidder has a chance, other than to pick up any small scraps that DISH

7

{00605332-1 }

App. 77

may leave behind. The auction is therefore a farce. Unless the reserve price is set to levels
consistent with the minimum bids and unless DISH is forced to make an election about the
uplink/downlink status of the adjacent AWS-4 band before the auction begins, the auction should
be cancelled. When the procedures are corrected, the short form period should be re-opened to
bidders who wish to participate in a fair auction.

Respectfully submitted,

NTCH, Inc.
By:________/s/___________
Donald J. Evans
Its Attorney

Fletcher, Heald & Hildreth
1300 N 17th St.
Suite 1100
Arlington, VA 22209
703-812-0430

8

{00605332-1 }

App. 78

Before the
FEDERAL COMMUNICATIONS COMMISSION
Washington, D.C.
In re

)
)
)
)
)
)
)

DISH Network Corporation
Petition for Waiver of Sections 27.5(j) and
27.53(h)(2)(ii) of the Commission's Rules and
Request for Extension of Time
To:

WT Docket 13-225

The Commission
NTCH, INC.'S APPLICATION FOR REVIEW
NTCH, Inc. ("NTCH") hereby applies to the full Commission pursuant to Section 1.115

of the rules for review of the Wireless Telecommunications Bureau's December 20, 2013
Memorandum Opinion and Order, DA 13-2409 ("Waiver Order") granting, over NTCH's
objections, DISH Network's ("DISH's") petition for certain waivers and extensions.
SUMMARY
The Bureau's action below was a product of a novel and pernicious policy decision to
take cash payments to the Commission by petitioners into account in making public interest
decisions. As will be discussed below, the waiver of the AWS-4 build-out deadline was
inconsistent with long and consistent FCC precedent regarding the grounds for providing
construction build-out relief. The downlink/uplink waiver completely overturned the result of
"considerable analysis" by the Commission of the record in this Docket which had established
the band plan and uplink/downlink configuration for the newly created AWS-4 service set forth

{00614931-1 }

1

`

App. 79

in the rules.1 The Bureau's abrupt abandonment of the Commission's analysis in the absence of
any new facts whatsoever (other than the deal with DISH) is unsustainable. Moreover, the
change in the uplink/downlink configuration, if elected by DISH, would effectively change the
rule requiring uplink operation in the 2000-2020 MHz band for the sole licensee of AWS-4 and
all future licensees. There is literally nothing left of the rule, and a rulemaking was therefore the
required mechanism under the Administrative Procedure Act to accomplish this change. Finally,
by granting DISH the right to make its uplink/downlink election up to 30 months from the date
of the Waiver Order, the Commission gave DISH a huge advantage in the auction by allowing it
to unilaterally increase the value of the adjacent H Block by the election it makes.
A.

B.

Questions Presented for Review
1.

Is it lawful or good policy for the Commission to accept cash payments in
exchange for benefits granted to petitioners, i.e., to make the payment of money
to the Commission an element of the Commission's public interest analysis?

2.

Was the Bureau's grant of a build-out extension based on the petitioner's business
judgments consistent with precedent that bars business judgment-based delays as
a justification for build-out extensions?

3.

Did the Bureau properly justify the abandonment of the uplink/downlink plan
which the Commission had previously determined would minimize interference
and be most conducive to interservice synergies?

4.

When a waiver of a rule effectively eliminates the rule entirely, must the
Commission proceed by rulemaking rather than waiver?

5.

Did the grant of a 30 month period for DISH to determine the direction of the
2000-2020 band give it an unfair advantage in the H Block auction by allowing it
to unilaterally increase the value of the H Block?

Factors Warranting Commission Consideration

1

Service Rules for Advanced Wireless Services in the 2000-2020 MHz and 2180-2200 MHz Bands, WT Docket
No. 12-70, Report and Order and Order of Proposed Modification, 27 FCC Rcd 16102, 16108, at ¶ 25 (2012)
(“AWS-4 Service Rules Order”).

{00614931-1 }

2
App. 80

C.

1.

The Bureau's reliance on a cash payment as a public interest consideration is a
novel issue of law and policy, as is its grant of a waiver which is electable by the
grantee at its option.

2.

The Bureau's action was inconsistent with the Commission's prior precedent
supporting the existing uplink/downlink configuration, was inconsistent with
precedent and the Administrative Procedure Act by effectively changing a rule
without going through required rulemaking procedures, and directly conflicted
with precedent in granting a build-out extension based on DISH's business
judgment to defer construction pending other developments.

Argument
1.

FCC public interest determinations should not be based on the amount of
cash promised by a petitioner.

The situation presented here is a novel one. It is undisputed that the rule waivers and
build-out extension which were granted here by the Bureau were granted, in part or in whole, in
exchange for DISH's agreement to bid about $1.5 billion in the H Block auction. While the
Bureau offered feeble public interest justifications to support its actions, it clearly would not
have taken the actions absent DISH's commitment to pay the H Block cash. Indeed, the Bureau's
actions were expressly conditioned on receipt of that payment. Obviously, if the Bureau's
actions had been independently supported or justified by normal public interest considerations,
there would have been no need for the payment condition because the actions would have stood
on their own. There can thus be no ambiguity at all about the role of the cash payment in this
action. It was an explicit quid pro quo: cash for waivers and extensions. Indeed, the Bureau
made no bones about it. It stated that the delivery of funds by DISH that would ultimately go to
fund FirstNet "is an additional public interest benefit to be considered in connection with
evaluation of its waiver request." Waiver Order at ¶53.2

2

It is immaterial in this connection that the cash payment was promised in the context of an auction. That happened
to be a vehicle where the Commission would shortly be receiving payments from the public, so it was a convenient
way funnel the payment. But there is theoretically no reason why cash consideration could not be paid outside the

{00614931-1 }

3
App. 81

This is extraordinary. So far as NTCH has been able to determine, there is no other
instance in the annals of FCC law or, for that matter, in the annals of federal administrative law
generally, where the agency has openly accepted cash as consideration for favorable action on a
matter before it. If a public official accepted cash in exchange for the same action, that would be
called "bribery." Here there is no suggestion of corruption. We have no doubt that the
Commission will receive and direct the promised funds to a worthy cause and that no individual
is benefitting. The question of first impression here is whether the Commission itself may
engage in conduct which it would be unlawful for one of its employees to engage in.
At first blush, the Bureau's assertion that the receipt of cash for a worthy cause is in the
public interest and therefore justifies the action has some facial merit. How could it be wrongful
for a cash-starved government agency to get money from its supplicants in exchange for favors
when the money is supporting a service that will further public safety? There are four answers to
that question.
(1)

Lord Acton famously declaimed that power tends to corrupt and absolute power

corrupts absolutely. A corollary to that dictum is that money tends to corrupt, and lots of money
corrupts absolutely. In this context, what that means is not that the agency suffers a moral failure
but rather that the attraction of money is inevitably likely to tilt the balance of judgment in the
direction dictated by the money, and when lots of money is involved, the balance will always tilt
towards the money. We need only look at the instant case to see the truth of this principle. In
adopting the AWS-4 rules, the Commission evaluated at considerable length a full record and
concluded on that basis that the uplink rule it adopted was in the public interest for a variety of
reasons. It rejected a number of available alternatives based on that considered review. When
auction context, just as forfeitures or "voluntary contributions" to the treasury are made in connection with consent
decrees.

{00614931-1 }

4
App. 82

DISH made its cash offer, all of those considerations, which had been thoroughly considered and
approved by the full Commission, were thrown out the window even though nothing else had
changed! The only new element was the money, and that completely outweighed the "the
totality of the facts and circumstances" which the Commission had "considered as a whole."
AWS-4 Service Rules Order at ¶25. A billion and a half reasons easily overcame the other more
pedestrian public interest factors which had driven the Commission in the first instance to adopt
the configuration it did.
(2)

If the payment of money to the FCC is a relevant and permissible public interest

factor, shouldn't it be a factor in all FCC decisions? Assuming as we must that all of the FCC's
functions are somewhat worthy of support, even if not so flag-draped as FirstNet, why shouldn't
the Commission accept money in evaluating all of its decisions -- which applications should be
granted, which rules adopted, which waivers granted, which applications denied. In each case,
the promise of money to support the FCC's functions (or, even more broadly, the functions of the
federal government) would (and should, under the Bureau's new approach) be taken into account
in every decision. The Commission can always use more field inspection offices, more lawyers,
more office space and computer capacity, nicer offices, etc. Under the Bureau's theory, not only
would it be permissible for the Commission to accept funds for such purposes in connection with
requests for Commission action, but it would be foolish not to. This renders the process of
seeking public interest determinations by the Commission the equivalent of medieval pardoners
selling indulgences.
(3)

The consideration of cash offers in connection with the Commission's public

interest deliberations necessarily disadvantages the poor. Under the Bureau's public interest
calculus, the amount of money offered to the Commission for worthy purposes is a legitimate

{00614931-1 }

5
App. 83

basis for decision. If a disadvantaged minority group or a public interest group, for example,
was advocating for a particular outcome, but was opposed by a corporate giant, the Commission
could base its decision on how much money the opposing parties could pony up. The rich
corporation would win most of, if not all of, the time. Letting policy decisions be driven by cash
payments rather than non-cash public interest factors will lead to a Jeffersonian nightmare, an
unabashed plutocracy rather than a democracy.
(4)

Finally, we note that the adoption of this new "cash for benefits" policy is a

dramatic new direction for the Commission. There is no precedent whatsoever for the Bureau's
action, and therefore it was, at a minimum, beyond the authority of the Bureau to pursue this
course without direction from the full Commission. See 47 C.F.R. Section 0.331(a)(2) ("The
Bureau shall not have authority to act on any [petitions] when such [petitions] present new or
novel questions of law or policy which cannot be resolved under outstanding Commission
precedent or guidelines.") There is no precedent whatsoever for the Bureau's action, and thus its
action was beyond its delegated authority.
But more importantly, this is also a dramatic change in direction for the Commission
itself. The adoption of cash payments to the government as a public interest consideration is
something new under the sun. Never before has the Commission adopted or even entertained
such a conception of the public interest. As we have briefly set forth above, the path of cash-forbenefits is fraught with adverse consequences for the Commission's independence, the integrity
of its decisions, the confidence that the public must have in the impartiality of its decisions, and
virtually every other aspect of its regulatory mission. The courts have frequently opined that the
Commission may change direction, but when it does so it must do so in a considered way that
evaluates and considers the change in direction. FCC v. Fox TV Stations, Inc., 556 U.S. 502, 515

{00614931-1 }

6
App. 84

(2009): “To be sure, the requirement that an agency provide reasoned explanation for its action
would ordinarily demand that it display awareness that it is changing position. An agency may
not, for example, depart from a prior policy sub silentio or simply disregard rules that are still on
the books. And of course, the agency must show that there are good reasons for the new policy.”
(internal citations omitted; Anna Jaques Hospital v. Sebelius, 583 F.3d 1, 6 (2009); Clinton
Memorial Hospital v. Shalala, 10 F.3d 854, 859 (1993); NAACP v. FCC, 682 F.2d 993, 999
(1982). Here the Commission has set its course down that new path with seemingly only the
slightest reflection (cash furthers the statutory goal of funding FirstNet and therefore it is in the
public interest). The full Commission should pause and think this through.
2.

The Bureau's grant of an extension for the AWS-4 license was directly
contrary to precedent.

Section 1.946(e) of the Commission's rules prescribes that an extension of time to
construct may be granted upon a showing of a "loss of site or other cause beyond its control."
In assessing what circumstances constitute a cause beyond a licensee's control, the Commission
has repeatedly and consistently held that delays attributable to the licensee's own business
decisions do not justify extensions of build-out periods. See, e.g., Star Search Rural TV and
Cellular, Inc., 28 FCC Rcd 11182 (WTB, 2013) (licensee's failure to construct was due to its
business plan requiring a multitude of receive stations); Wireless America, LLC, 24 FCC Rcd
804 (WTB, 2009) (licensee undertook to build out a 6.25 KHz channel, then decided not to
construct when it had trouble getting equipment); Bristol Mas Partners, 14 FCC Rcd 5007
(WTB, 1999). These and a host of other cases hold that a licensee may not delay or defer
construction based on business vagaries of its own creation. The Commission also typically
frowns on extension requests when the petitioner has made no actual efforts toward construction.

{00614931-1 }

7
App. 85

The Waiver Order ignores that body of precedent. The Bureau granted the one year
extension based solely on the fact that DISH would not be able to begin construction until it
made the uplink/downlink election which the Bureau granted at the same time. It was DISH that
requested the extraordinary authority to have 30 months to make up its mind about which
direction the 2000-2020 MHz band would run, and then that indecision is used as a basis for
extending the construction period. This is precisely the sort of licensee-created business decision
which the Commission has without exception refused to accept as a ground for extension of time
to construct, yet here without distinguishing (or even acknowledging) the long line of cases to
the contrary, the Bureau simply granted the extension. Moreover, DISH had expressly
committed in the AWS-4 proceeding to "aggressively build out a broadband network," Waiver
Order at Para. 43, just as the hapless licensee in Wireless America, supra, did. In that case, the
commitment was thrown back in its face when the licensee sought an extension; here the
commitment appears to have been ignored since DISH did not request an extension of the
interim build out period.
Even if DISH's payment was a legitimate factor to take into account, the Bureau still
needed to address how or why past precedents were being ignored. Although the Bureau insists
that it independently evaluated the public interest considerations involved in the waiver and
extension requests without regard to the cash, it later concedes that the cash was a factor.
Indeed, there is no other explanation for its abrupt deviation from precedent.
3.

The Bureau's deviation from the technical configuration of the 2000-2020
MHz band is unsupported.

In the course of the AWS-4 Service Rules proceeding, the Commission conducted an
exhaustive analysis of the configuration of the AWS-4 band, including its potential effects on
adjacent services. It considered numerous band plan options and specifically considered the best

{00614931-1 }

8
App. 86

ways to configure the band for uplink and downlink operations. In November, 2012, it adopted
an Order concluding, based on the "totality of the record," that the band should be configured as
it was -- i.e., with the 2000-2020 band as an uplink band. In particular, the Commission found
that the specific uplink/downlink plan it adopted would "facilitate the continued use of existing
satellites for MSS. ... Stated otherwise, having the AWS-4 band parallel the spectrum pairing of
the 2 GHz MSS band, in terms of their uplink and downlink designations, will minimize the
possibility that AWS-4 operations could interfere with 2 GHz MSS operations and will offer the
greatest opportunity for synergies between the two mobile services. Our finding is supported by
the record."3
In the year that intervened between the adoption of the AWS-4 rules and the grant of the
waiver here, nothing had changed. DISH remains, as it was in the fall of 2012, the only licensee
of the two S band MSS licenses. The Commission plainly contemplated at the time that DISH
would agree to the modification of its licenses as permitted there -- indeed, the whole service is
premised on that happening. None of the technical considerations have changed. The sole
change is that DISH has now offered a large amount of money to get the option to configure the
band differently than the Commission originally found to be in the public interest. If the totality
of the record supported the configuration a year ago, how can those factors not now be
compelling?
Finally, we must note the irony that one of the justifications offered by the Commission
for granting this waiver was a finding that it would "enhance wireless broadband competition,
encourage innovation, speed up broadband deployment, and increase the supply of in-demand
downlink spectrum to be used on an unpaired basis or paired with non-AWS-4 spectrum."
Waiver Order at Para. 23. It is frankly impossible to see how anything in the record shows that
3

H Block Service Rules Order at Para. 39.

{00614931-1 }

9
App. 87

this waiver will in any way "encourage innovation." It is even more impossible to see how it will
"speed up broadband deployment" since the Commission actually gave DISH more time to roll
out its service than the original rule required. The inevitable result is that broadband deployment
will be delayed, not accelerated; there can have been no other reason for requesting the
extension. What these patently unfounded assertions in the Waiver Order underscore is that the
Bureau was simply grasping at fine-sounding but meaningless justifications for a waiver that was
plainly driven by dollars, not by merit.
4.

The Commission must proceed by rulemaking if the effect of a waiver is to
leave the rule a nullity.

The rule waiver granted to DISH covers DISH, the sole licensee in the AWS-4 service,
and all entities who later become licensees. It is permanent. Once DISH makes the election as
to which direction it wants the 2000- 2020 MHz band to go, that determination lasts forever and
applies to everyone. Accordingly, the requirement that that band to be used solely for uplink will
of no further effect. The Bureau has therefore effectively written the rule out of the Code of
Federal Regulations without ever going through the procedures specified by the Administrative
Procedure Act. 5 U.S.C. Sections 553(b) and (c).
It is a black-letter principle of law that a waiver of a rule must not swallow the rule itself.
Nextel Communications, Inc., 14 FCC Rcd 11678, 11691-92 (WTB, 1999) (“It is axiomatic that
the Commission must not eviscerate a rule by a waiver.”); In the Matter of AT&T, 88 FCC 2d
150 at ¶ 15 (1981) ( “Where a waiver is found to be in the public interest, it is generally
expected that the waiver will not be so broad as to eviscerate the rule. Rather, the waiver must be
tailored to the specific contours of the exceptional circumstances.”); In the Matter of
Applications for Authority to Construct, 3 FCC Rcd 4690 at ¶ 10 (1988) (“This is not an
appropriate case for a waiver. Maritel’s requested relief is so broad that it goes to the basis of the

{00614931-1 }

10
App. 88

rule and can only be addressed in rulemaking.” ) Use of a waiver to entirely abrogate a rule
unlawfully sidesteps the strict provisions of the APA.
The Bureau's response is that waivers act as a safety valve for exemptions from the
general rules based on special circumstances. Waiver Order at Para. 54. But unlike the cases
cited by the Commission, which involved true exceptions for entities with unique problems in
specific problem areas (non-standard use of certain frequencies in Alaska to accommodate that
state's remote and sparsely populated situation and a waiver of the EBS transition rules for a
small system in a remote part of South Dakota), here the waiver applies universally and
permanently to the entire universe of AWS-4 licensees. There can be no clearer case of the
exception swallowing the rule.
5.

The waiver gives DISH an unfair advantage in the H Block auction.

Everyone, including the Commission and DISH, agree that the configuration of the
AWS-4 band will affect the value of the adjacent H Block which is coming up for auction on
January 22. As the Commission noted, and DISH concedes, converting the 2000-2020 band to
downlink-only would have a beneficial effect by making possible the elimination of protective
measures (OOBE limits) by H Block licensees that would otherwise be needed to protect the
AWS-4 licensee from interference. The Bureau recognized that these limits cold be eased if the
adjacent band is downlink rather than uplink. This change in the uplink status of the AWS-4
band would thus make the H Block more valuable; not making the change would leave the value
of the H Block where it is. Only DISH, a bidder in the auction, has been given the key to decide
whether to add that value or not.
The situation might be likened to an auction for a parcel of property which is
immediately adjacent to a sanitary landfill. The auctioneer has granted one of the bidders in the

{00614931-1 }

11
App. 89

right to decide after the auction is over whether the landfill will be discontinued and turned into a
park or not. The favored bidder, obviously, can gauge its bids on its knowledge of what it
intends to do, presumably bidding higher than it otherwise would if the landfill will go away.
The other bidders cannot fairly assess the value of the property because they don't know a key
variable which has been given to one of their competitors. The integrity of the auction is
necessarily distorted from the start by the imbalance in the fairness of the bidding process.
The Bureau's answer to this problem was to caution all bidders that they should be aware
of the uncertainties involved in bidding on this particular spectrum band,4 but that does address
the point: one of the bidders does not have to factor in that uncertainty because that bidder
controls the main element of uncertainty. This problem could have been ameliorated by at least
requiring DISH to make its election before the H Block auction begins. That way all bidders
would be able to make their bids with full knowledge of how the adjacent band would be
configured. In addition, the rules for this auction strictly maintain secrecy as to the identity of
bidders and potential amounts to be bid by each bidder. Yet this "secret bidder" policy is
completely undermined by DISH's stated commitment to bid $1.5 billion in the auction, a factor
that the Bureau did not even acknowledge in reconsidering the auction rules. As it is, the H
Block auction is irrevocably flawed.
CONCLUSION
For the reasons stated above, the Commission should review the cash- for- benefits policy
adopted by the Bureau, categorically reject that policy as a basis for granting waivers or taking
any other FCC actions, reverse the grant of the uplink/downlink waiver both as unsupported by
the record and as a violation of the Administrative Procedure Act, initiate a rulemaking to
4

In re Petition for Reconsideration of Public Notice Announcing Procedures and Reserve Price for the H Block
Auction (Auction 96), DA13-2281, re. November 27, 2013 at Para. 19.

{00614931-1 }

12
App. 90

consider the matters handled by waiver, permit the H Block auction to go forward only if the
status of the adjacent 2000-2020 MHz band is finally resolved, and reverse the grant of the
extension of time to construct as being in conflict with Commission precedent.

{00614931-1 }

13
App. 91

Respectfully submitted
NTCH, Inc.
By: /s/ Donald J. Evans
Donald J. Evans
Fletcher, Heald & Hildreth
1300 N 17th St.
Suite 1100
Arlington, VA 22209
Telephone: (703) 812-0430
Facsimile: (703) 812-0486
Its Attorney
Date: January 22, 2014

{00614931-1 }

14
App. 92

47 C.F.R. § 0.331(a)(2)
The Chief, Wireless Telecommunications Bureau shall not have authority to act on any complaints,
petitions or requests, whether or not accompanied by an application, when such complaints,
petitions or requests present new or novel questions of law or policy which cannot be resolved
under outstanding Commission precedents and guidelines.

{01464404-1 }

App. 93

47 C.F.R. § 1.115(a)
Any person aggrieved by any action taken pursuant to delegated authority may file an application
requesting review of that action by the Commission. Any person filing an application for review
who has not previously participated in the proceeding shall include with his application a statement
describing with particularity the manner in which he is aggrieved by the action taken and showing
good reason why it was not possible for him to participate in the earlier stages of the proceeding.
Any application for review which fails to make an adequate showing in this respect will be
dismissed.
47 C.F.R. § 1.115(b)(2)
The application for review shall specify with particularity, from among the following, the factor(s)
which warrant Commission consideration of the questions presented:
(i) The action taken pursuant to delegated authority is in conflict with statute, regulation, case
precedent, or established Commission policy.
(ii) The action involves a question of law or policy which has not previously been resolved by the
Commission.
(iii) The action involves application of a precedent or policy which should be overturned or revised.
(iv) An erroneous finding as to an important or material question of fact.
(v) Prejudicial procedural error.

{01464404-1 }

App. 94

47 C.F.R. § 1.2105(a)(2)(viii)
The short-form application must contain the following information, and all information,
statements, certifications and declarations submitted in the application shall be made under penalty
of perjury . . . Certification that the applicant has provided in its application a brief description of,
and identified each party to, any partnerships, joint ventures, consortia or other agreements,
arrangements or understandings of any kind relating to the licenses being auctioned, including any
agreements that address or communicate directly or indirectly bids (including specific prices),
bidding strategies (including the specific licenses on which to bid or not to bid), or the post-auction
market structure, to which the applicant, or any party that controls as defined in paragraph (a)(4)
of this section or is controlled by the applicant, is a party.

{01464404-1 }

App. 95

47 C.F.R. § 1.2105(c)(1)
After the short-form application filing deadline, all applicants are prohibited from cooperating or
collaborating with respect to, communicating with or disclosing, to each other or any nationwide
provider that is not an applicant, or, if the applicant is a nationwide provider, any non-nationwide
provider that is not an applicant, in any manner the substance of their own, or each other's, or any
other applicants' bids or bidding strategies (including post-auction market structure), or discussing
or negotiating settlement agreements, until after the down payment deadline, unless such
communications are within the scope of an agreement described in paragraphs (a)(2)(ix)(A)
through (C) of this section that is disclosed pursuant to paragraph (a)(2)(viii) of this section

{01464404-1 }

App. 96

